<html>
<title> - COMBAT VEHICLE ACTIVE PROTECTION SYSTEMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-126]
 
                COMBAT VEHICLE ACTIVE PROTECTION SYSTEMS

                               __________

                                HEARING

                               BEFORE THE

               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 21, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                    U.S. GOVERNMENT PRINTING OFFICE
33-593                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


               TACTICAL AIR AND LAND FORCES SUBCOMMITTEE

                  CURT WELDON, Pennsylvania, Chairman
HOWARD P. ``BUCK'' McKEON,           NEIL ABERCROMBIE, Hawaii
    California                       IKE SKELTON, Missouri
JIM GIBBONS, Nevada                  JOHN SPRATT, South Carolina
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
FRANK A. LoBIONDO, New Jersey        LANE EVANS, Illinois
JEB BRADLEY, New Hampshire           ADAM SMITH, Washington
MICHAEL TURNER, Ohio                 MIKE McINTYRE, North Carolina
MICHAEL CONAWAY, Texas               ROBERT A. BRADY, Pennsylvania
TERRY EVERETT, Alabama               STEVE ISRAEL, New York
ROSCOE G. BARTLETT, Maryland         JIM COOPER, Tennessee
WALTER B. JONES, North Carolina      KENDRICK B. MEEK, Florida
JIM RYUN, Kansas                     TIM RYAN, Ohio
W. TODD AKIN, Missouri               G.K. BUTTERFIELD, North Carolina
J. RANDY FORBES, Virginia            DAN BOREN, Oklahoma
JOE WILSON, South Carolina
BILL SHUSTER, Pennsylvania
                 John Wason, Professional Staff Member
               Jesse Tolleson, Professional Staff Member
                Andrew Hunter, Professional Staff Member
                     Benjamin Kohr, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, September 21, 2006, Combat Vehicle Active Protection 
  Systems........................................................     1

Appendix:

Thursday, September 21, 2006.....................................    27
                              ----------                              

                      THURSDAY, SEPTEMBER 21, 2006
                COMBAT VEHICLE ACTIVE PROTECTION SYSTEMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Ranking 
  Member, Tactical Air and Land Forces Subcommittee..............     3
Weldon, Hon. Curt, a Representative from Pennsylvania, Chairman, 
  Tactical Air and Land Forces Subcommittee......................     1

                               WITNESSES

Buhrkuhl, Dr. Robert L., Director, Joint Rapid Acquisition Cell, 
  Office of the Under Secretary of Defense (Acquisition, 
  Technology & Logistics)........................................     7
Feldman, Lloyd, Assistant Director, Office of Force 
  Transformation, Office of the Secretary of Defense.............    10
Sorenson, Maj. Gen. Jeffrey, Deputy Assistant Secretary of the 
  Army (Acquisition, Logistics and Technology) for Acquisition 
  and Systems Management.........................................     9

                                APPENDIX

Prepared Statements:

    Buhrkuhl, Dr. Robert L.......................................    31
    Feldman, Lloyd...............................................    48
    Sorenson, Maj. Gen. Jeffrey..................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Bradley..................................................    00
    Mr. Jones....................................................    00
    Mr. Weldon...................................................    00
                COMBAT VEHICLE ACTIVE PROTECTION SYSTEMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Tactical Air and Land Forces Subcommittee,
                      Washington, DC, Thursday, September 21, 2006.
    The subcommittee met, pursuant to call, at 10:02 a.m. in 
room 2118, Rayburn House Office Building, Hon. Curt Weldon 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. CURT WELDON, A REPRESENTATIVE FROM 
     PENNSYLVANIA, CHAIRMAN, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Weldon. The subcommittee will come to order. Today 
continuing our high priority placed on providing force 
protection for our men and women in combat, the subcommittee is 
holding its sixth hearing on force protection issues. We will 
receive testimony from Department of Defense (DOD) witnesses on 
combat vehicle active protection systems (APS), systems 
designed to protect ground combat vehicles from threats like 
rocket propelled grenades (RPGs) and anti-tank guided missiles 
(ATGM). This capability has been described to me as a mini 
missile defense systems. Only instead of a system with 20-to-30 
minute timelines, a system with 2-second to 3-second timelines 
and once armed is without the man-in-the-loop.
    Also, because of the proximity of engagements to the 
defending vehicle, there are associated potential collateral 
damage considerations. So achieving this capability is not 
without significant conceptual, technical, and tactical 
challenges.
    In April 2005, Central Command (CENTCOM) validated a Joint 
Urgent Operational Needs Statement request from our forces in 
Iraq for a capability that included a requirement for a fully 
automated, active protection system against rocket propelled 
grenades and anti-tank missiles. Initially, the tasking for the 
Central Command request was assigned by the Joint Rapid 
Acquisition Cell (JRAC) in the Office of the Secretary of 
Defense (OSD) to the Office of Force Transformation (OFT) in 
the Office of the Secretary of Defense.
    After conducting a market survey of active protective 
systems that offered the promise of providing near-term 
capability, the Office of Force Transformation and other 
agencies to include the Army, determined that a system called 
TROPHY developed by an Israeli company offered the most promise 
of providing the required capability. After preliminary 
testing, the Office of Force Transformation estimated that the 
TROPHY system could be fielded onto one demonstrator vehicle in 
the first half of 2007.
    However, the Army and OSD's Joint Rapid Acquisition Cell 
recommended against continuing testing of TROPHY because of 
technical and collateral damage issues, and that the Central 
Command urgent requirement could not be met until at the 
earliest, the 2011 fielding of the active protection system 
being developed for the Army's Future Combat Systems (FCS) 
program.
    So we have a situation where Central Command has validated 
an urgent requirement for an active protection system. The 
Office of Force Transformation indicates that a system could be 
fielded in the first half of next year, 2007. Yet the Office of 
the Secretary of Defense has decided to not field a capability 
until 2011 at the earliest. We would like to understand what 
factors went into this decision.
    Further complicated a public understanding of the facts in 
the effort to develop and field a system that could protect our 
personnel was a recent evening news segment. This segment 
implied to the mothers and fathers of America that U.S. 
officials are not doing everything they can to give their sons 
and daughters the best possible equipment for the war on 
terrorism. I don't know about our witnesses, but I know that it 
doesn't apply to me, and I am confident they believe it doesn't 
apply to them.
    The news segment in question further implied and quoted an 
unnamed official as saying that an active protection system is 
``ready today.'' that can be put on U.S. combat vehicles in 
Iraq. Well, if that is the case, I want to know where that 
system is. The segment also interviewed a distraught mother who 
had lost her son and implied that if only the Army had not 
blocked the TROPHY active protection system, her son would be 
alive today.
    It further went on to infer that if the Army had not 
blocked this system, 132 lives that were lost might not have 
been lost. When in actuality, the reported facts are that even 
if this system had been deployed in Iraq on all the vehicles 
for which it was designed, 122 of the 132 would still have been 
killed. Now, a loss of one service member is unacceptable and 
one too many. But implying that 132 would have been saved is 
just factually incorrect and outrageous.
    This segment goes on to say that the Israeli military, 
based on its recent experience in Lebanon, is ``rushing to 
deploy TROPHY.'' yet the best available information we have 
been able to get indicates that the Israelis had originally 
planned to do an operational assessment of the TROPHY system in 
2007, but are now in discussions to attempt to accelerate this 
plan. We are all entitled to our own views, but I don't call 
this type of reporting responsible journalism. This is 
journalism that plays on people's deep emotions, strings 
unrelated facts together which leads to false conclusions and 
with an unknown intent.
    Now we invited their news media, including their anchor, to 
come to this hearing because if they have a story to tell, let 
them tell it where we can ask questions as opposed to 30 or 60 
second sound bites, and of course, the media which proclaims to 
want to have all the open information and all the facts would 
not send their person, even the producer, to come before this 
committee, which I find highly offensive.
    If you are going to make a claim to the American people, 
then have the intestinal fortitude to defend your position in 
front of the Members of Congress who are responsible for 
implementing these systems. And if you don't, in my opinion, 
you have no integrity as a media source.
    Now I will tell you what I really think when you get here 
in person. In addition, the Army has not always been clear in 
responding to the public and Congress and has provided 
contradictory information on its active protection systems 
program. So I am not going to be a rubber stamp for any 
service. In an information paper dated June 13 responding to a 
query from our committee, the Army stated in one place that the 
TROPHY system could be deployed as early as the end of 2006 on 
Israeli vehicles, but further on in the response, indicated it 
was on a similar developmental timeline as the only other U.S. 
active protection system in development scheduled for fielding 
in 2011.
    Similarly, explanations regarding the selection of the 
contractor for the Future Combat Systems active protection 
program are unclear as to what the contractor was selected to 
do. This has led to media accusations that the Army cooked 
their books in the selection of the contractor. We intend to 
ask the Government Accountability Office (GAO) to determine the 
facts in the source selection. Contrary to information provided 
in witness statements, we are not aware of any funded program 
for an active protection system for current systems like the M 
1 tanks, Bradley fighting vehicles or Stryker vehicles in the 
Army or Marine Corps budgets.
    We look forward to hearing the specifics of these purported 
programs. Some of the major issues we need to address are 
number one, does the current threat to our combat vehicles 
require an active protection system for these vehicles? Number 
two, does an effective acceptable active protection exist to 
equip those vehicles? And when can it be fielded?
    Number three, is the investment required to equip those 
vehicles with an active protection system warranted relative to 
all of our other requirements? I have additional questions 
about tests that the Army may or may not have attended about 
what the process was to determine which eventual course of 
action we take, and if we do have a short-term capability, why 
in the world aren't we implementing it while we pursue a longer 
term capability?
    Those are questions that this committee wants to get to the 
bottom of. Again, given the urgent action request from Central 
Command for our forces in Iraq, the subcommittee hopes to 
understand why the Office of the Secretary of Defense has 
declined to pursue an interim active system capability. With 
the earliest possible projected fueling of an active system 
being 2011.
    Before we introduce the witnesses for their opening 
remarks, I would like to recognize my good friend from Hawaii, 
the ranking member, Mr. Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
     HAWAII, RANKING MEMBER, TACTICAL AIR AND LAND FORCES 
                          SUBCOMMITTEE

    Mr. Abercrombie. Thank you, Mr. Chairman. Mr. Chairman, 
ordinarily, you are aware that I seldom make a formal statement 
at this point and submit it for the record, but in this 
instance with your permission, I would like to speak more 
formally.
    Mr. Chairman, I believe I am correct in making the claim 
that there may be other committees that have as good a record 
as this committee does of focussing on testing and proving 
systems, not just in the military sense, but in any process 
that the Congress approves of legislatively with regard to any 
issue that might come before us of a legitimate legislative 
nature, but there cannot be any committee in this Congress that 
pursues more assiduously the question of testing, the question 
of viability with regard to any activity that is legislatively 
mandated by us or any of those committees to advance the 
interests of the American people.
    More particularly in this instance, where the Armed 
Services Committee is concerned, no committee or subcommittee 
pursues the issue of adequate testing in order to make certain 
that where the life and death of American servicemen and women 
is at stake, that any equipment that is provided to them has 
the best possible foundation. I think I can state that without 
reservation.
    To my knowledge, Mr. Chairman, certainly as far as me being 
your ranking member is concerned, we were not contacted. The 
staff associated both with my office personally and the staff 
assigned by the committee certainly were never given the 
opportunity to inform me that such a proposal was underway by 
the media. Now, I don't know, Mr. Chairman, you said I see this 
camera over here, I don't know where it is from, but I don't 
see anybody named Brian Williams or Lisa Myers or any producers 
or anybody like that around here. I know Mr. Williams gets paid 
a good deal of money to pontificate daily on the air and 
presumably has some shred of integrity that would require him 
to have some kind of investigation as to what he is putting 
forward for public consumption, or has some basis, in fact.
    Now the subject of this hearing is a critical one. How does 
our military select and develop weapon systems that help 
protect the lives of our troops in combat? Is that a fair 
assessment? I think so. Such a process should get the troops 
what they need, be open to new ideas and be willing to try 
unorthodox approaches. This committee has been a leader in that 
respect.
    However, the process through which we give our troops 
equipment also has to be thorough. I need only cite our work on 
the Presidential helicopter as the most recent example. It 
would be tragic if an effort to protect our troops ended up 
instead actually putting them in greater risk, what this 
committee wants from the DOD and the military is a system that 
is both open to new ideas and timely, but also rigorous in 
vetting technologies before they go into battle.
    That is a difficult balance to strike, but finding that 
balance is essential. The issues in question in today's hearing 
are very complicated, both from a technical and a military 
operational standpoint. active protection systems ``for 
vehicles are a daunting technical challenge.'' I have an idea 
that that--that the witnesses today are going to verify what I 
am saying. The systems have to be completely automated due to 
the short reaction time available to shoot down an incoming 
missile or rocket-propelled grenade. I want to keep trying to 
read through this without getting upset about this.
    Every committee in this Congress is important. Every 
subject matter of every committee is important, but this is the 
only committee that deals with life and death issues in 
virtually everything we do and every vote we take, the 
consequences can result in somebody losing their life or their 
limbs. It is not an abstraction, it is not an academic 
discussion, it is not a matter of political punditry so you 
could score points on somebody. This committee takes very, very 
seriously issues of life and death. I am going to repeat, the 
systems have to be completely automated due to the short 
reaction time available to shoot down an incoming missile or 
rocket-propelled grenade.
    It isn't done with sound bites on television. They have to 
be safe enough to use in real combat environments, not just in 
a testing range. This committee does not make votes using the 
men and women in our Armed Services as lead goats or as fodder 
for tests in order to satisfy television. For example, a 
protective system that indeed protects the vehicle but kills 
all the American troops standing beside it may not exactly be 
the ideal choice. At a minimum, the complexity of the issues 
involved at today's hearing suggest serious testing and 
military judgment must be applied to this problem before the 
military moves forward.
    The NBC story broadcast a few weeks ago that led to today's 
hearing raised many issues about how the Army decided to 
proceed with the development of an active protection system and 
what kind of threats our troops face in Iraq or may face in the 
future elsewhere. The NBC story alleged the following--this 
is--I realize, Mr. Chairman, you elucidated your view, but I 
would like to do mine.
    That the Army chose to pursue its own active protecting 
systems from Raytheon rather than buying an Israeli system 
called TROPHY. That the Army overruled others in the Pentagon 
who wanted to test the Israeli system in Iraq on select U.S. 
vehicles, that the Army rejected the Israeli system due to its 
ties to Raytheon, a U.S. defense company, that the Army 
rejected the Israeli system because it could threaten funding 
for the Future Combat System, which includes the Raytheon 
Active Protection System project.
    Parenthetically Mr. Chairman, the Army probably feels that 
the biggest threat to the Future Combat System is you and I and 
the members of this committee, because if anybody has taken the 
Future Combat System through its paces, it is this 
subcommittee.
    Since the report came out, a number of additional facts 
have emerged. In my judgment the Israeli TROPHY protection 
system is not ready to deploy today. It is, at best, an 
advanced prototype and does not counter roadside bombs, which 
is the main threat to U.S. vehicles in Iraq. And the main 
thing--I see Mr. Simmons there at the end of the row, the main 
thing that we went to Iraq to investigate on a bipartisan basis 
having nothing to do with Raytheon or Democrats or Republicans 
or the Future Combat System. The TROPHY system essentially uses 
small shotgun shell-type projectiles to shoot down incoming 
threats. I am not sure that Lisa Myers has the first clue as to 
what that is all about, let alone Brian Williams. He is too 
busy being made up.
    However, these shells can cause considerable injury to 
nearby dismounted troops and/or civilians. So the utility of 
the system in the war in Iraq that features lots of both 
friendly infantry near U.S. vehicles and civilians is 
questionable. This is urban warfare. The Army contends that the 
project its working on for active protection will produce a 
more effective system that is more relevant to addressing the 
threats to U.S. vehicles in Iraq, and that I believe is what 
the goal and purpose of the Army investigation and testing--the 
weapons testing program is all about.
    Finally, the Army contends that the process it went through 
and analyzed various active protection systems was open and 
followed all appropriate regulations and guidelines. That is 
what this subcommittee investigates regularly. So the goal of 
today's hearing is to lay all the facts on the table so this 
committee can decide what further steps are needed.
    I will tell you this, that Ms. Myers and Mr. Williams 
should be ashamed of themselves. Now, that may be very hard for 
self-important media types in this country who never reflect on 
themselves except by way of self-congratulation, they should be 
ashamed of themselves, they should be ashamed they are not here 
today because they had played fast and loose with the emotions 
of people whose sons and daughters, whose wives and husbands 
have been put at risk, or worse, in Iraq and Afghanistan. It is 
about time that they show a little responsibility to go along 
with the glory. Thank you.
    Mr. Weldon. As usual, it is great to have you as my ranking 
member, Mr. Abercrombie, because you display the kind of 
sentiment that I think best reflects what this Congress is all 
about. We just want the truth. That is all. We want to know 
what the truth is. We want to know what the facts are. And we 
are willing to take them on, either side. I will show them no 
favoritism in this hearing. I will be as aggressive with the 
Army as those who propose other alternatives. We want the best 
for our troops, and we will pay for it.
    This committee has put dollar after dollar on the table 
above the amount requested by the White House and the Pentagon 
to buy equipment that is needed immediately, and we want to put 
the best capability in the field immediately. But to have a 
sensationalist news account come out that plays on the emotions 
of people that have been traumatized by the loss of their loved 
ones is just, to me, unacceptable. And I wish that NBC would 
have come in here today. I wish they would have taken the same 
approach to an open hearing of the Congress the same way they 
purport to want the facts in their news accounts.
    They claim to confess to want to know what the real story 
is. Well, here we are, NBC. Where are you? Are you here? Are 
you hiding behind some wall or are you on the cool camera 
looking from the outside? Well, maybe it seems like Neil and I 
are being a little too aggressive, but we are sick of this. We 
went through this with The New York Times when they put on the 
front page of The New York Times a depiction of our soldiers 
showing the enemy where the most vulnerable spot is to kill one 
of our soldiers based on the equipment we provide for them. And 
in spite of our military generals saying, please don't use 
that, The New York Times ran the story on the front page. Well, 
you know the media has to be held accountable.
    The media likes to hold us accountable and none of us back 
away from that. When is it time to hold the nameless faceless 
bureaucrats, the producers, the behind-the-scenes people who 
hold the bombs, when is it time to hold them accountable? I 
think it starts today. We have with us three expert witnesses 
that have been directly involved with active protection 
systems. Representing the Office of the Secretary of Defense is 
the director of the Joint Rapid Acquisition Cell, Dr. Robert 
Buhrkuhl. Is that correct?
    Dr. Buhrkuhl. Buhrkuhl, sir.
    Mr. Weldon. Buhrkuhl. Thank you. Representing the Army is 
Major General Jeff Sorenson, Deputy Assistant Secretary of the 
Army For Acquisition and Systems Management. And Assistant 
Director for the Office of Force Transformation, Mr. Lloyd 
Feldman. We thank you all for being here. NBC News, I will 
repeat, declined our invitation to be represented here today. I 
guess democracy just doesn't work both ways with the media.
    Without objection, all of our witnesses' prepared testimony 
will be included in the hearing record. And Doctor, we would 
thank you for your service and ask you to start off, make 
whatever comments you would like to make, and then we will go 
to questions following the statements by all three of you.

  STATEMENT OF DR. ROBERT L. BUHRKUHL, DIRECTOR, JOINT RAPID 
  ACQUISITION CELL, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
             (ACQUISITION, TECHNOLOGY & LOGISTICS)

    Dr. Buhrkuhl. Thank you, sir. Chairman Weldon, Congressman 
Abercrombie, other distinguished members of the subcommittee, 
thank you for the opportunity to appear today before the 
subcommittee to discuss the concerns expressed over delaying 
the integration of the Israeli active protection system named 
TROPHY onto the Full Spectrum Effects Platform called FSEP. As 
a director of the Department's Joint Rapid Acquisition Cell, 
also called the JRAC, I am responsible for facilitating the 
Department's response to the immediate warfighting needs that 
are submitted by the combatant commanders.
    The Joint Rapid Acquisition Cell provides a single pointed 
of contact in the Department for facilitating solutions to 
address these urgent needs. We focus on near-term material 
solutions typically involving existing off-the-shelf 
capabilities that can satisfy to some degree the urgent needs 
of the combatant commanders. On April 19, 2005, the United 
States Central Command submitted a Joint Urgent Operational 
Needs Statement for a capability that included a suite of 
scalable nonlethal and lethal capabilities mounted onto a 
Stryker infantry carrier vehicle. The suite of weapons would 
conceptually provide the warfighter with a full spectrum of 
components to conduct force protection missions, route 
reconnaissance, crowd control, raids and point defense all in 
an effort to save lives and reduce collateral damage. The 
Central Command's concept included a component for a fully 
automated active protection system to counter rocket-propelled 
grenades and anti-tank missiles. This component subsystem was 
the TROPHY active protection system and was to be used on the 
Stryker vehicles in lieu of the slat armor. Slat armor forms a 
metal cage around the vehicle and detonates rocket-propelled 
grenades before they can penetrate the vehicle itself. On April 
28, 2005, after evaluating the Central Command's request, the 
joint staff supported the need but stated that the proposed 
FSEP solution with all of its subsystems was unachievable in 
the near term, which is a requirement for taking action to 
resolve an immediate warfighter need. Subsequently, the Office 
of Force Transformation working with Army officials and the 
Naval Surface Warfare Center planned a more thorough and 
accelerated schedule for integrating the subsystems onto the 
FSEP vehicle and presented their proposal to the JRAC on 
September 19, 2005.
    Based on the JRAC's recommendation in January 2006, the 
Deputy Secretary of Defense approved the use of $31.3 million 
for the Army to proceed with Spiral 1 Development of FSEP. In 
May of this year, however, the Army----
    Mr. Abercrombie. Excuse me, Dr. Buhrkuhl. Would you just 
explain for the record what you mean by that kind of 
development?
    Dr. Buhrkuhl. Sir, we in the JRAC do not focus on 
development. What we try to do is take off-the-shelf 
technologies that are available. The nearest we would get to 
development would be the integration of those components on a 
single platform.
    In May of this year, however, the Army program manager 
identified potential delays in delivering Spiral 1 
capabilities, specifically, the active protection subsystem 
TROPHY displayed technical development and performance risks, 
which ultimately led to the decision to delay the integration 
of this capability onto FSEP Spiral 1 Strykers. During my 
deliberations, I consulted with numerous stakeholders that 
included the joint staff, the commander Army Test and 
Evaluation Command, the Office of the Director for Operational 
Tests and Evaluation, the Director of Capabilities 
developments, U.S. Army capability's integration center and 
representatives from the Naval Surface Warfare Center and the 
Office of Force Transformation, all of whom expressed their 
opinions regarding the availability and the readiness of the 
TROPHY active protection subsystem.
    The majority of the stakeholders believes that the TROPHY, 
because of technological inventory and qualification testing 
requirements, would not meet the overall FSEP schedule and that 
it was desired by the combatant commander. I then presented the 
pertinent facts to CENTCOM and asked that they request that the 
request be revalidated. In doing so, I specifically raised the 
issues about the potential cost and schedule impacts of the 
active protection subsystem on the overall FSEP program. On May 
16, 2006, Central Command responded that they are proceeding 
with Spiral 1 with the already available lethal and nonlethal 
capabilities and using slat armor for vehicle and crew 
protection instead of the TROPHY subsystem was the preferred 
option.
    Slat armor is used today, has proven itself in combat 
conditions and according to the Army is very effective against 
rocket-propelled grenades. Based on these consultations, I 
validated the Army program's manager's decision to integrate 
the active protection subsystem capability in a later spiral of 
the FSEP program.
    In closing, Mr. Chairman, the acquisition community is 
committed to the safety of our warfighters and in ensuring that 
they have the best protection and weapons systems available. 
Thank you for the opportunity to testify today and I welcome 
your questions.
    [The prepared statement of Dr. Buhrkuhl can be found in the 
Appendix on page 31.]

   STATEMENT OF MAJ. GEN. JEFFREY SORENSON, DEPUTY ASSISTANT 
 SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS AND TECHNOLOGY) 
             FOR ACQUISITION AND SYSTEMS MANAGEMENT

    General Sorenson. Congressman Weldon--Chairman Weldon, 
excuse me, and Congressman Abercrombie, distinguished members 
of the House Armed Services Subcommittee, I would like to 
express my appreciation for this opportunity to appear before 
this committee to discuss the Army's continued effort to 
improve the force protection capabilities of our soldiers, 
specifically combat vehicle active protection systems, 
otherwise known as APS. Although I have already submitted 
testimony for the record, I would like to make some brief 
opening remarks. I want to be absolutely sure that you 
understand the Army is committed to making sure our soldiers 
have the best force protection capability and active protection 
systems available. However, the systems we provide our soldiers 
must meet the current threat and they must be proven, tested 
and validated. We will not give our soldiers a false sense of 
security by fielding systems that are not rigorously tested in 
an operational environment. Every soldier is important, and 
every loss of life is tragic. The Army has taken significant 
steps to counter the rocket-propelled grenade, otherwise known 
as RPG, threats for many years and will continue to modernize 
our force protection capabilities for future threats. The RPG 
threat to our combat systems is considerably less than what has 
recently been reported in the press. I have provided some, if 
you will, unclassified data which I will go through in 
questions later on to address that specific issue, but in fact, 
the main threat to our forces is Improvised Explosive Devices 
(IED), specifically to those in our wheeled vehicle fleet. To 
date, the Army has fielded 950 sets of Bradley Reactive Armor 
Tiles, 1,097 sets of M113 Slat Armor Kits and two brigades sets 
of Stryker Slat Armor Kits.
    In addition, the first sets of Stryker Reactive Armor Tiles 
will be available for fielding this October and the first set 
of the Abrams Reactive Armor Tiles will be available for 
fielding to theater in June. The reactive armor and slat armor 
protection systems currently deployed contribute greatly to the 
effectiveness of our current forces, specifically our combat 
systems, the Stryker, the Abrams and the Bradley to defeat RPG 
threats without use of an active protection system. Currently 
the Army through the Future Combat System program is diligently 
proceeding on a path to obtain the best single short range APS 
for current force systems while they are developing a parallel 
path to ensure that the common full-spectrum capability hit 
avoidance subsystem for the future combat system man ground 
vehicles.
    The full spectrum solution is to counter both short and 
long range threats and to provide a 360 degree hemispherical 
bubble of protection. Contrary to news media reports, the Lead 
System Integrator (LSI), that is Boeing and SAIC and the 
government conducted the source selection for the subcontract 
award for the APS system. Raytheon did not participate in the 
source selection. The LSI, with complete government 
participation and concurrence, selected Raytheon.
    The Army further maintains that no contract improprieties 
occurred during the source selection process. The reference to 
the Raytheon participation in the trade study process was 
reported incorrectly and was aired by the media. The terms of 
the APS subcontract award to Raytheon, they were to conduct a 
technical trade study as stipulated in their contract. Their 
participation in the trade study was proper and consistent 
within the context of the subcontract award requirements. And 
that the purpose of the engineering trade study was to 
determine the best short range APS integrate system 
architecture that would meet the integration requirements for 
both current force active protection requirements consistent 
with an established growth path to the Future Combat System 
manned ground vehicles. There are a number of U.S. and foreign-
based active protection systems under development. However, 
none of these APS systems can be integrated today into our 
combat systems.
    The Army considers TROPHY an engineering prototype and does 
not consider the system operationally validated for fielding to 
the current force. Challenges exist in developing, integrating 
and fielding APS systems, such as minimizing collateral damage 
to the soldiers and the noncombatants while ensuring the right 
for self-defense.
    In conclusion, the Army is absolutely committed to 
providing our soldiers with the best force protection 
capability available. However, the Army will not procure and 
field any system that is not proven, not tested adequately, and 
not validated to be operationally ready and safe. The Army 
finds the recent news reports to our approach to procuring an 
APS capability biased, unfair and truly disheartening. Thank 
you, and I will look forward to your questions.
    [The prepared statement of General Sorenson can be found in 
the Appendix on page 39.]
    Mr. Weldon. Mr. Feldman, thank you for being here.

STATEMENT OF LLOYD FELDMAN, ASSISTANT DIRECTOR, OFFICE OF FORCE 
       TRANSFORMATION, OFFICE OF THE SECRETARY OF DEFENSE

    Mr. Feldman. Chairman Weldon, Congressman Abercrombie, 
members of the subcommittee, I am honored to address the 
subcommittee, and I am grateful for the opportunity to discuss 
the Office of Force Transformation's innovative work on Project 
Sheriff which became FSEP and its demonstration to the TROPHY 
active protection system. I have included, as part of my 
written testimony, four addendums that include the chronology 
of the relevant events related to the initiative to process 
analysis and rationale that led to the selection of the TROPHY 
system and how the TROPHY system was integrated into a Stryker 
vehicle provided by the U.S. Army for the Sheriff FSEP Program 
and relevant testing information and results.
    The United States military finds itself today engaged in a 
long war against multiple types of terrorist cells and other 
malignant nonstate actors whose organizations are amorphous and 
ever changing. Confronting this threat requires shedding long-
held assumptions regarding our preferred methods of warfare and 
how our forces go about finding, tracking and targeting an 
elusive enemy who hides among civilian populations and exhibits 
no moral inhibitions to sacrificing innocents to achieve their 
aims.
    Confronting this enemy requires waging a war against 
individuals. Successfully fighting the type of war requires a 
willingness to embrace new types of capabilities, vastly 
different tactics and new ways of developing capabilities 
relevant for this fight. That is, in part, what the Office of 
Force Transformation was established to do for the Department 
of Defense. The Office serves as an internal catalyst for 
change. It champions those types of concept technology pairings 
that are potential game changers in terms of how their future 
use will fundamentally alter battlefields of tomorrow.
    OFT operates at the intersection of nonarticulated needs 
and nonconsensual change. In plain speak, we do things that 
perhaps a Title 10 agency might not be ready to do or want to 
do, and they are, in fact, are chartered to do to be against 
the flow. As a result, the Office has a wide field of maneuver, 
a sanctuary where new ideas and innovations can be experimented 
with outside the restricted confines of established 
requirements in the world of acquisition. We generate new 
knowledge and create unique experimental articles for use in 
the combatant commands, the warfighters, to enable an 
alternative path for the Department to address future needs. 
Requirements in the context of the Office of Force 
Transformation are, in some ways, a term of art, and we choose 
to address needs and opportunities which have not been 
established working in advance of requirements.
    One method that OFT uses to speed the creation of new 
knowledge across the force is through the idea of concept 
technology pairing. The objective is to operate in advance of 
requirements. These initiatives should not be considered 
programs. They are far removed from the normal acquisition 
process and in some cases, the rigor the intent is the early 
exploration through experimentation, operational 
experimentation with surrogate technologies or early 
applications around the loosely-defined concept tied to 
recognized gaps and current capabilities.
    In this case, complex urban operations in difficult to 
discriminate scenarios where people not wearing uniforms 
embedded oftentimes in human defilade need to be discriminated 
while providing survival to the forces so that we don't kill 
the Italian journalist and we don't have to die while 
attempting not to do it.
    To date, the Office of Force Transformation has launched 
concept technology pairings in the areas of operationally 
responsive space, Project Sheriff, Redirected Energy, Stiletto/
Wolfpac and Sense and Respond Logistics.
    Concept-technology pairing is to provide the first rung in 
the ladder that gets us to the future that we want to achieve 
and develop operational dexterity, conceptual learning with the 
forces. These pairings are not expected to be 100 percent 
effective, and we should not be surprised if some of them fail. 
The product here is learning in conjunction with the real 
capabilities developed for the forces, addressing warfighter 
needs. New knowledge can best be advanced through a process of 
trial and error, exploring the limits in ways acquisition 
programs are sometimes not able to do, but where the pairings 
approach differs from the departmental efforts like Advanced 
Concept Technology Demonstrations (ACTD) is one of intent.
    ACTDs are expected to enter into production at the 
completion of their 3-year phase and as such, a premium is 
placed on finding and selecting the ACTDs only from those 
candidates that offer a near-term promise of being produced and 
procured. The result is a collection of relatively well 
appreciated and understood technologies and not those more on 
the cutting edge of innovation. The output from our concept 
technology pairing initiatives however, is new knowledge that, 
in turn, leads quickly into another more refined version of the 
concept, successive iterations of the concept, in essence, 
bring that concept forward and allow warfighters to use and 
shape new term opportunities for concepts like Sheriff FSEP 
that were previously relegated to an ill-defined future.
    By getting these capabilities into the hands of warfighters 
early and allowing them to experiment and exploring with 
successive iterations of the capabilities allows for the rapid 
coevolution of tactics concepts and leads to a level of 
operational dexterity that promotes innovation among the 
forces. It is the information age way of getting to an 
understanding of how you would use things before they are, in 
fact, laid in concrete, like riding a bicycle. It is not about 
the bike. It is about what you are going to learn to do, and 
eventually the Tour de France winning bike will come to Lance 
Armstrong, the newspaper boy bike to somebody else, and we will 
be able to work that out.
    Project Sheriff and the follow on Wolfpack Platoon Project 
are the Office of Force Transformation initiatives that pair 
leading edge operational concepts for complex irregular warfare 
with state-of-the-art enabling technology. The Project Sheriff 
initiative was started in 2004 and addressed urgent warfighter 
needs to integrate the sensors, lethal and nonlethal weapons 
and force protection.
    It is designed to rapidly and iteratively experiment with 
pioneering tactics and technology through a close interaction 
between innovative warriors and a supporting community of 
industry, government laboratories and universities. These 
rapidly executed experiments are designed to create and test an 
integrated prototype no more than 18 months that fits into an 
overarching operational construct to create a low-cost 
experimental venue where warfighters and supporting science and 
technology community and a cell closely cooperate and 
complement and inform the more deliberate acquisition process 
by identifying warfighter needs and experimenting with 
potential technological solutions, tactics, procedures, 
policies, employment of nonlethal and autonomous systems.
    The ultimate goal is to be a catalyst for meeting the 
emerging needs of ground battle in irregular warfare, 
counterinsurgency and security and stabilization operations. 
The project also specifically addressed U.S. Central Command's 
urgent needs in Iraq and Afghanistan. These needs were formally 
expressed in a time-critical Joint Operational Needs Statement 
developed by Multi-National Corps Iraq, and endorsed by Central 
Command in 2005 for capabilities to be provided by the Sheriff 
Project. Project Sheriff and the new follow-on Wolfpack Platoon 
Project being proposed and defined in cooperation with the 
Marines are designed to specifically address the compressed 
strategic and operational and tactical levels of war and 
intelligence; the problem of identifying combatants intermixed 
with noncombatants; the need for in-depth situational 
awareness; the blurred distinction between combat and police 
actions; the requirement for multiple levels of graduated 
response and precise target discrimination; the opportunity for 
increased command, control, communications, computers, 
intelligence, surveillance and reconnaissance, C4ISR, to create 
tactical options against a distributed threat and to move it to 
the lowest level possible; the digital, organizational and 
intelligence divide found between tactical units at the edge of 
battle and the technology enabled higher headquarters which 
have a different set of tools, and drive it down lowest; and 
the increased threat of improvised explosive devices, rocket-
propelled grenades, anti-tank guided munitions, snipers, and 
small arms ambushes.
    To meet this new highly dynamic and evolving threat to 
American forces, Project Sheriff's goals were experiment with 
innovative concepts of operation, tactics, technologies and 
procedures that would both inform and be informed by potential 
technology enablers; integrate commercial off the shelf from 
mature technologies into complementary combined arms solutions 
mounted on a light armored vehicle under compressed timelines; 
combine nonlethal directed energy, high power millimeter wave, 
high power white light, laser glare aversion for optical 
denial, long range acoustic device--with sensor enabled active 
protection, lethal response, and electronic warfare; develop 
the synergistic, combined arms employment of lethal kinetic 
energy and nonlethal directed energy weapons in compartmented 
urban terrain; and combine active protection, lethal gunfire 
and electronic warfare to meet the threat of RPGs, snipers, and 
IEDs; serve as an active denial technology proof-of-concept in 
anticipation of fielding longer-range, more capable directed 
energy technologies; and to test rapidly and rigorously but not 
exhaustively in an operationally realistic environment prior to 
deployment to get an initial level of assessment for safety, 
utility and advantage; and to complete required bio-effects 
research, legal, and policy reviews prior to deployment; and 
increase the learning and inform the acquisition programs and 
minimal expense, informing requirements with empirical data on 
what can be done, abated tests for military forces which is 
required in the information age.
    The active protection system is one component of the FSEP 
sheriff vehicle that we put together at that point in time. It 
is an important one but it is one component of a suite that was 
designed to provide congruent ability to do advanced sensing 
with new sensors, to use countermeasures, to spoil shots visual 
acuity and dexterity to engage our forces and provide survival 
and then to do weapons systems with a congruent field of view, 
the idea of getting to a rear stack instead of a trigger for 
our forces that would minimize the engagement timeline and get 
to self-targeting so that adversaries who engaged our forces 
would not get a fast successful shot, and at the time they were 
doing that, we would, in fact, be able to progress through our 
own timeline of engagement with these particular tools.
    As I say, active protection system is one component to this 
combined arms approach that aims to fundamentally enhance 
capabilities for ground battle in complex urban environments. 
In addition to IEDs, RPGs and an increasingly sophisticated and 
prevalent threat in irregular warfare, and an active protection 
system enables light armored vehicles to survive a first shot 
from a hidden enemy while the TROPHY active protection system 
was selected as the most promising near-term capability for 
experimental assessment based on government laboratory 
evaluation. Initial U.S. defense laboratory testing of TROPHY 
began this year. The ongoing Wolfpack Platoon Project will 
continue a testing program that builds on these initial 
successful tests and that validates extensive Israeli testing 
in U.S. industry evaluations. The aim of this testing program 
is to evaluate near-term active protection technology to 
rapidly meet immediate warfighting needs; determine how APS 
fits into a combined arms approach to the RPG, IEG, sniper and 
small arms ambush threat; and conduct experiments led by 
warfighters to advance operating concepts and refine needs that 
will inform the development of any active protective system.
    My testimony does not address the issue of the 
deliberations that led to the removal of the active protection 
system from FSEP, as the Office of Force Transformation is not 
a member of the Joint Rapid Acquisition Cell. Representatives 
from the Office of Force Transformation were invited to 
numerous meetings with Dr. Buhrkuhl and the JRAC, and we 
presented our views in the course of these discussions.
    I thank the committee for its interest in Office of Force 
Transformation's Sheriff and follow-on efforts and the 
continued support for the department-wide transformation. I 
look forward to providing more detail to any questions you may 
have.
    [The prepared statement of Mr. Feldman can be found in the 
Appendix on page 48.]
    Mr. Weldon. Thank you for your statements, and thank you 
for your service to the country. And there will be no five-
minute rule. So I will give the members all a chance to ask as 
much questions as they want, and we will eventually ask for 
unanimous consent to allow our good friend and colleague to 
join us in asking questions today. Dr. Buhrkuhl, I would want 
to focus on, first of all, a couple of questions to you. In 
your prepared statement, you indicate that Central Command's 
requirement was for a fully automated active protection system 
against rocket-propelled grenades and anti-tank missiles. Our 
reading of the requirement also dated April 19, 2005, that you 
reference indicates that the requirement was for ``an improved 
active protection capability against rocket-propelled 
grenades.'' would you please clarify what Central Command's 
request was for?
    Dr. Buhrkuhl. Yes, sir. Central command's request was, as 
you stated, for an improved active protection capability 
against RPGs. What was briefed to us was the Full Spectrum 
Effects Weapon System (F-SEWS). This program called FSEP now 
was in Sheriff in F-SEWs and FSEP. The name kept changing. And 
the F-SEWS, inherent in that was the TROPHY's subsystem where 
we were briefed on the joint urgent operational need.
    Mr. Weldon. When the decision was made to proceed with the 
Full Spectrum Effects Platform without the TROPHY system, what 
was the estimate of the Office of Force Transformation's 
fielding need based on continued required testing?
    Dr. Buhrkuhl. I am not sure on the Office of Force 
Transformation. I don't recall their date. I can tell you, we 
had estimates from 6 to 14 fields to field it from the testing 
community, whether it was the Army Test and Evaluation Command 
or the OFT operational testing.
    Mr. Weldon. Mr. Feldman, would you like to respond to that?
    Mr. Feldman. My recollection at this time----
    Mr. Weldon. Could you pull the mike closer?
    Mr. Feldman. My recollection at this time was that we felt 
that we could have the testing completed and fielding by 
September 2007.
    Mr. Weldon. September of 2007.
    Mr. Feldman. Yes, sir.
    Mr. Weldon. The Office of Force Transformation had 
indicated a readiness for fielding of the TROPHY system in 
2007, the estimated fielding date for the this system 
associated with FCS is 2011. A decision was made to not proceed 
with the TROPHY system. What was the decision based on?
    Dr. Buhrkuhl. The decision for us for FSEP--and remember we 
are looking--we were looking at a full package program was what 
the user required, was to meet a national training center date 
of the end of February to be able to deploy for an operational 
assessment the end of July.
    So the time frame didn't fit, waiting on the TROPHY to fit 
into that timeline. We also consulted and looked at the slat 
armor as an alternative, and since it seems to be very 
effective against RPGs, we felt like that provided the 
effectiveness against that danger for warfighters.
    Therefore, we, as we normally do or sometimes do in the 
JRAC provide the warfighter with a 95 percent solution now in 
the near term, now, we didn't disapprove, obviously, a Spiral 
update later, but for now, to meet the immediate needs, we felt 
like we had to move forward.
    Mr. Weldon. Well, that is one I am sure my colleagues are 
going to want to explore further. It is hard for me to 
understand. I understand that you are saying that you had 
alternative proposals and technologies that, in fact, you felt 
would meet the threat, but I still want to further explore in 
the committee the reasons why we didn't aggressively pursue a 
short-term varient if, in fact, that was, in the opinion of the 
Army, possible.
    In your statement, you indicate you made a statement in May 
of this year to validate the Army program manager's decision, 
integrate the active protection capability and subsequent 
development. Is there an ongoing testing to field this 
capability? If so, what is your estimated date of fielding of 
the capability?
    Dr. Buhrkuhl. Sir, there is an ongoing effort between the 
Naval Warfare Center, the Army Program Manager (PM). The first 
priority though is to get the three Strykers prepared and ready 
to go to theater in July. They are focused on that. I am not 
sure what they are doing as far as continual testing of the 
TROPHY.
    Mr. Weldon. What is your experience with the status of 
CENTCOM? Urgent action needs statements, how many have come 
through your office and how many have been deferred?
    Dr. Buhrkuhl. I can't remember an exact amount. We deferred 
for probably two or three, and we have addressed about $250 
million worth of needs over the last two years.
    Mr. Weldon. The point that we want to reinforce is this 
committee has been wanting to take the lead in providing 
whatever additional funding has been necessary. We did that 
back when the President was running for re-election and 
Secretary Wolfowitz didn't want us to talk about a 
supplemental.
    This committee stood up as Democrats and Republicans and 
demanded that we put an additional $25 billion on the table 
because the Army's request for its budget for that year was 
actually a requested decrease while we had $6 billion of 
unfunded requirements not being met.
    So there should not be a question of dollars. We want--what 
is the ultimate fact that this committee stands behind is, we 
do not want to have an additional soldier, marine, sailor, 
corps man killed if there is a way for us to avoid that, and 
cost should never be an issue. So there should never be an 
issue of the expense necessary to put an acceptable technology 
into the field. Now, granted, as Neil pointed out very 
precisely, we want the testing, we want to make sure there is 
not collateral damage. We want to make sure that we are testing 
it before we go into--but as soon as possible, we want 
deployment so that we can protect the soldiers.
    Let me ask you a couple of specific questions just for the 
record; maybe, General, you would be the best to answer this, 
or I don't know who.
    Last year, the Army planned a test competing RPG defense 
systems in a shoot-off rodeo, and this competition was 
cancelled, I understand, by the Army, supposedly in part due to 
cost. Now, my understanding is that contractors usually pay the 
costs of such tests. There was speculation that the Army 
cancelled the tests because the Raytheon system was not yet 
ready. So for the record, would you comment on that, please?
    General Sorenson. Yes, Chairman. I would say from my 
understanding, certainly cost was not the overriding factor. I 
think the issue was in order to make an assessment of what we 
would be doing for active protection systems for not only the 
future force, but also the current force, that it was best to 
be done in a source selection process as opposed to somebody 
who might have a capability show up, and we not take a look at 
others that in many cases could be in development and 
available.
    So the decision was made at that point, rather than just 
kind of doing the rodeo where maybe a few people show up, but 
really canvass industry, canvass foreign industry to find out 
potentially in a time frame what actually could we find----
    Mr. Weldon. How long would that take?
    General Sorenson. I am sorry?
    Mr. Weldon. How long would that take to do that canvassing?
    General Sorenson. The selection?
    Mr. Weldon. For the systems.
    General Sorenson. Again, as we walk through this, we 
basically put out a Request for Proposal (RFP) back out in 2005 
with respect to having an APS developer. The contract was 
awarded to Raytheon here in March. A trace study was done 
subsequent to that and looked at 20 different systems. The 
systems were analyzed in terms of their capabilities based upon 
data that had already been evaluated by our Research, 
Development, and Engineering Command (RDECOM), as well as other 
commands within, if you will, the Tank Automotive Command, 
TARDEC, et cetera. And that particular study was basically done 
within a matter of about three or four days in terms of trying 
to assess what additional systems could potentially be put in 
to current force and future force activity.
    Mr. Abercrombie. Mr. Chairman, would you yield for just a 
moment?
    Mr. Weldon. Certainly.
    Mr. Abercrombie. Just so we get clear, because a lot of the 
technical expressions that you have made in the course to the 
testimony here I think members of the committee understand 
pretty clear, but maybe not everybody in the public has a grip 
on it. Let me just see if I understand what you said so far--
and I have this clear, particularly in the light of the 
document that we have had a chance to look at here.
    Now isn't it a fact, isn't it a clear fact of the matter 
that very few deaths--rather, let me restate that--most deaths 
come from small-arms fire or roadside bombs, and that the RPG 
and missile fire account for the very few? And as a result, 
there is other protective equipment which you have cited in 
terms of armor, various types of armor that help protect 
against RPGs and missiles already, and effectively so; isn't 
that the case?
    General Sorenson. Yes.
    Mr. Abercrombie. So when you are making the representation 
to the Chairman here, part of the time frames and everything 
else is based on what you conceive of as being the essential 
nature of the kind of protection that you either are providing 
now or have to provide.
    General Sorenson. Correct.
    Mr. Abercrombie. This gives you your 95 versus 100 percent 
and so on; in other words, the RPG and missile fire. If you 
read the text of the NBC report and imagine it being said, you 
would think that the RPG and missile fire is the essential 
feature of the deaths and maiming that takes place, and that is 
not the case, is it?
    General Sorenson. No, it is not. And again, the data that 
we have provided here is basically for official use (FOU), it 
has been sanitized, it is basically National Ground 
Intelligence Center (NGIC) data. It essentially says that 85 
percent of attacks with respect to our combat vehicles are from 
IEDs. And you can see there we have identified, in terms of 
percentage, what the killed in action are from the IEDs.
    Mr. Abercrombie. So for purposes of public information, the 
context within which you are making the decisions has to be 
what is the existing danger to the people we are trying to 
protect and the vehicles we are trying to equip; isn't that 
correct?
    General Sorenson. Yes, sir. And if you look----
    Mr. Abercrombie. Thank you, Mr. Chairman.
    General Sorenson. If you look at chart two, you can see 
that the total RPG attacks in our combat systems is a very 
small percentage. And even with that small percentage, most of 
the attacks have resulted in no damage to those vehicles 
because of what we put on those vehicles, whether it is Slat 
armor, reactive tiles, or whatever; and you can see right there 
there is zero killed in action, none.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Weldon. I thank the gentleman.
    What I am going to do, because we are scheduled to have 
votes at 11:30, I am going to go to the other Members. And I 
turn now to Mr. Abercrombie for further questions. Or we will 
come back; you and I will get more.
    Let's go to--Mr. Gibbons is next. You are recognized.
    Mr. Gibbons. Thank you very much, Mr. Chairman.
    And, gentlemen, thank you for being here today to help us 
better understand these very perplexing issues.
    You know, oftentimes in government we tend to let the 
perfect get in the way of the good. And many times we have a 
tendency to resist fielding technology until we have created 
the Library of Congress information on that technology to avoid 
any risk. And oftentimes we here get a little frustrated with 
the process, think it is a little too bureaucratic. Sometimes 
we would like to see things happen more quickly than we do.
    You know, we need to be risk takers. And I know that is not 
a popular idea when we are in a war, but when I look back over 
the course of history of things that have been developed during 
the trying times of war, some systems have proven to be much 
better that were instantly created and thrown out there. And I 
will just give you the P-51 Mustang during World War II, 
created in a very short time frame, became a remarkable 
aircraft interceptor for the United States Army Air Corps at 
the time.
    When I look at IED and jamming devices, many times we have 
a tendency to want to believe that we can do this technology, 
but in order to cover every spectrum of jamming technology, we 
have got to have a system as big as this room before we can get 
something out there to protect the soldiers in some form or 
some fashion. And I would presume it is in the same tendency 
that we are looking at this system here.
    Let me ask just a basic question for those of you that are 
knowledgeable about the Trophy system or the Raytheon APS 
system. When you compare the two, how long has the Trophy 
system been under development, under the same kind of process 
as compared to the Raytheon system? And which one can go into 
production today?
    General Sorenson. Sir, if I may address that particular 
piece of it. I think our understanding, in our working with the 
Israeli Defense Forces, (IDF) basically the Trophy system has 
been certainly under development, I would say, probably for 
about the last decade. With respect to the Raytheon system, it 
has not been under development that long, but in terms of our 
analysis, in terms of system engineering, we have done some 
looking at the particular system here and found out that if you 
put the Trophy system on our combat systems, it is about 1-1/2 
times heavier, it takes up 1-1/2 times more volume, 10 times 
the power, and 3 times the integration problems. So it is not 
just a simple solution.
    And as you alluded to earlier, while the particular system 
itself might be something of avoiding a kill, there is a whole 
envelope of an onion here. We try to avoid the encounter to 
begin with by improving our situational awareness. We began to 
avoid, if you will, the detection of our systems through 
signature management and tactics, we began to avoid the 
acquisition or our targets, another envelope here of the onion, 
and then to avoid the hits, and to avoid the penetration and to 
avoid the kill.
    And we have put improvements with respect to situation 
awareness, we have put improvements with respect to our current 
suite of Slat armor and reactive armor tiles. We put 
countermeasure systems in terms of other ballistics protection. 
And that all is being used right now, as well as our tactics 
changes, to increase the force protection capabilities. It is 
just not a simple, you have got this, you have got the Klingon 
cloak, everything is going to be fine; it is a very complicated 
capability in terms of force protection.
    Mr. Gibbons. What do we sacrifice if we had put the Trophy 
system, say, for example, on a few vehicles today, sent them 
over there? What are we sacrificing if we did that?
    General Sorenson. Sir, it is not that we are sacrificing. 
Just from a systems engineering standpoint, if you put it on 
Stryker today, which essentially is what it was put on, first 
of all, the radars are exposed. Those radars can be taken out 
very easily in a complex attack by someone shooting a rifle at 
it and beginning to destroy the radar; therefore the system 
becomes ineffective.
    If you talk about what this particular system was looked 
at, it is going to be in a crowd; it is going to be the 
tactics, techniques and procedures (TTP) that you want to make 
sure it is not basically killing everybody in its--anywhere 
around there. Can we put a Trophy system on there that would be 
effective in doing that? The answer to that is no. Even the 
Israelis at this point in time are struggling to put it onto 
their Merkava tank; not a Stryker, not a Humvee, but their tank 
system.
    And so the final integration of this capability is 
something that has to be looked at. How does it affect power, 
how does it affect weight, how does it affect volume? It is not 
just something you hang on and it makes work.
    Mr. Gibbons. So you are saying today we could not adapt the 
Trophy system to----
    General Sorenson. Absolutely not. In fact, the test report 
that we got in from our tester said at best, even with Trophy 
system, at best, today if we had the system to get it 
integrated and get tested and then ultimately get fielded, we 
are looking at 2008, at best. And even today, we don't have the 
produceable item yet that we could basically do that with.
    Mr. Gibbons. So the contract with the Raytheon system would 
be to address all of these issues, to reduce the amount of 
power consumption, to reduce the profile of the radar on the 
vehicle, to eliminate the idea that the radar is going to be 
susceptible to a multiple complex attack, to distinguish that 
system--to have a system that distinguishes between true and 
false attacks that are going to be on that system.
    General Sorenson. Yes, indeed. And, in fact, we will have 
the capability from the Raytheon system at this point in time 
in terms of what we would basically hang on a vehicle in about 
2008. After that, it is the integration into a Stryker--which, 
oh, by the way, we thank the committee for having given us 
money to begin to do that not only this year in fiscal year 
2006, but we have additional funds in fiscal year 2007 that we 
are beginning to do the integration work on how we would 
basically begin to do that into a Stryker platform, which, 
quite frankly, would be more vulnerable than our Abrams and 
Bradley platforms.
    Mr. Gibbons. Well, without having to reinvent the wheel, 
General, would it be possible to modify the Trophy system to 
accommodate your concerns and to make those changes in that 
system that would more clearly reflect your concerns about 
power, about exposure, about distinguishing targeting and 
capability there, and have that system on line faster than 
completely doing a Raytheon system from the ground up?
    General Sorenson. Sir, at this point in time, in terms of 
we have done that analysis, we have done that through our trace 
studies and so forth, we have looked at the possibility of 
doing that, and at the very best we potentially could save 
maybe six or seven months, but that is a potential. And quite 
frankly, with the other issues that I talked to with respect to 
the Trophy system, not the least of which from the standpoint 
of providing 360-degree coverage, we have issues. From the 
standpoint of an autoloader that is not yet developed, we have 
issues. From the standpoint of the fact that it would basically 
be vulnerable to our one shot, now that particular side is 
completely vulnerable to another attack. In other words, I'm 
the enemy, I shoot, I basically deploy that system. Now it has 
got nothing; I shoot, I kill.
    So there are some issues right now with the Trophy system 
that would take additional development and integration before 
we could even be capable of putting it on our platforms. It is 
still long-term.
    Mr. Gibbons. General, I want to thank you for your 
explanations here today. And I can understand the difficulty. I 
know that it occurs in every system we produce for our men and 
women in the military. And I know there are evolutions of 
improvements that start--whether it is body armor, armor for a 
vehicle, jamming capability for IEDs, and now active protective 
systems for RPGs or other missiles coming in our tanks. And I 
know the difficulties there. I know the challenges that are 
ahead of you. I know the commitment that our men and women out 
there in your position are looking at today to make us all 
safer, and I thank you for that.
    Mr. Chairman, I want to associate myself with your words 
and that of Mr. Abercrombie in your opening remarks about the 
responsibility of this committee, the responsibility of our 
government to protect our troops. We grow, we evolve just as 
the attacks as on our troops do, and I hope that we are able to 
find those solutions quickly so that not another life is risked 
or lost unnecessarily. But I can think that these people out 
here know how difficult it is to send somebody to war, and how 
much they want to protect those individuals as well as anybody 
else. So thank you.
    Mr. Weldon. I thank the gentleman.
    The gentleman from Texas Mr. Conaway is recognized.
    Mr. Conaway. Thank you, Mr. Chairman. I just have one 
question.
    The idea of fratricide, in other words, our dismounted 
troops alongside most of these vehicles, right now at this 
stage the risks for an RPG or an antitank missile exploding 
against the side of a vehicle and the collateral damage for 
that, is that more or less than if we blow up that RPG round or 
that antitank missile away from that unit? What does that look 
like from a test standpoint?
    General Sorenson. With respect to the reactive--first of 
all, the Slat armor is essentially something that is going to 
just prevent the capability from basically penetrating. With 
the reactive armor tiles, there is a blast effect from the 
collateral damage, but it is localized. And we have done 
extensive testing on exactly what that particular dimension of 
vulnerability would be with respect to those reactive armor 
tiles.
    With respect to the Trophy system, or in this case as well 
with the Raytheon Quick Kill system, these two issues with 
respect to collateral damage are yet to be investigated or 
fully understood. But clearly it is going to be a little 
farther out as opposed to right against the vehicle, so 
consequently you are going to put a lot more people in harm's 
way just because of when those explosions are going to take 
place.
    But again, with the reactive armor tile, it is more or less 
a blast issue. When you begin to use a Trophy system or another 
type of APS system, you now begin to introduce fragmentation, 
which becomes a lot more deadly and a lot more lethal.
    Mr. Conaway. Any one of the three. Part of this hearing was 
triggered by the NBC report, maybe the Fox report, whatever, 
and you may have covered this in your opening statements, but 
just in a free kind of a response, what should we be saying to 
our constituents back home in response to their concerns raised 
by obviously an emotional appeal that went out over that two-
night broadcast? What should our response be?
    General Sorenson. Sir, I would say from the Army 
perspective, the response is we have provided--again, thanks to 
this committee for the funding that we have received--Slat 
armor, which essentially is Slat tiles on our Stryker systems, 
two brigade sets' worth; 950 sets of the Bradley reactive 
armor; 1,000-plus sets of the reactor armor tiles for the M-113 
personnel carriers. Those have found to be the most effective 
capabilities.
    The proof in the pudding is in this data chart. If you go 
to chart two and look at the attacks that have taken place from 
RPGs and our combat systems, the current capabilities that we 
have fielded have resulted in only minimal damage to our 
platforms. You can see that in red with respect to the 
percentage there, it is a low percentage. In addition, you can 
see in terms of the killed in action is basically zero.
    So the systems that we currently field have in fact 
protected our soldiers today. We are continuing to look at new 
threats, evolving threats, and I would contend, based upon our 
discussions with the Israelis and so forth, that right now what 
we have postured in terms of our developments for both short 
and long range is the most effective capability that we can 
give our soldiers into the future. I could go into that in more 
detail, but not in this particular setting.
    Mr. Feldman. I would also like to say, in addition to what 
the Army has contributed at this point in time and is going 
forward with, that the elements of force transformation that 
will continue to work in the environment under Secretary of 
Defense for Advanced Technology and Logistics, exploring some 
concept technology solutions, fully intend to press ahead with 
an experimental article to allow us to explore the capabilities 
of this close-in generation's active protection system in a 
sweep of lethal and nonlethal countermeasures to allow us to do 
the exploration of tactics and concept development.
    In addition to that, there has been some discussion that, 
in fact, we were going to explore the possibility of doing a 
comparative test evaluation of something like what we have been 
talking about here, the Trophy active protection system. It is 
not on the table at this point, but it is being explored.
    It is very important for us to understand, as to the 
Department's future in force transformation, that looking at 
those things which are hitting us right now and which we have 
had some success against is not all we need to do. We need to 
take a look at the recent engagement in Lebanon in which areas 
were flooded with antitank munitions, hundreds of them, in 
fact. And these things do provide enhanced lethality. 
Additional variants of RPGs in our future provide enhanced 
lethality, and things that engage these are highly nuanced.
    As we noticed before with antishift munitions coming at 
vessels, when you interdict the kinematic package of a Mach 2 
2-ton missile coming at you, in fact, you have to deal with the 
residuals and the fragmentations are significant. But there is 
a great benefit to interdicting weapon systems that come at you 
in a way that interferes with their design function of the 
warhead, whether it be shape charge or whether it be high 
explosive. In those cases we need to understand with witness 
boards and tactics the nuance of how we like to deploy our 
forces and how we would like to be able to utilize some of the 
benefits that come with systems that are highly directional in 
their response, as the Trophy system was, and that enable you 
to virtually put a capability down the bearing through which an 
RPG or a weapon has come in a retrodirective manner.
    So an additional part of the answer should be, we are 
looking in small numbers in prototypical programs at the 
potential to address this and develop the concepts and the 
tactics to go with it. And that informs the debate and informs 
the requirements for what we would do in the future.
    General Sorenson. If I could just have one more alibi. I 
would say the other piece of it, which I found to be extremely 
disturbing and disheartening, was the second part which talked 
about the Army's attempt to block the potential selection based 
upon intent to cook the books. And I can tell you without any 
equivocation--and any member of the committee can inspect those 
books if they would like--that particular source selection was 
above board; there were no improprieties conducted by any 
member of the LSI nor the government team, and they were the 
ones that made the decision, not Raytheon.
    Dr. Buhrkuhl. Sir, I would just like to add that the 
Department is committed to the safety of our warfighters, and 
we try to provide them with the best equipment possible.
    And for the record I want to make sure, Mr. Chairman, that 
you understand on the two joiners and operational needs that 
were turned back, neither was the result of a lack of funds. 
The Department has been very good in that regard.
    Mr. Weldon. Thank you.
    The gentleman from New Jersey is recognized.
    Mr. Taylor is recognized.
    After consultation with the Minority, I now ask unanimous 
consent that Mr. Simmons, a member of the House Armed Services 
Committee, be allowed to participate in today's Tactical Air 
and Land Subcommittee hearing and be authorized to ask the 
witness questions. Any objections?
    Mr. Simmons will be recognized now for his time.
    Mr. Simmons. I thank the Chairman, and I thank the Ranking 
Member, and I commend them for the hearing, but more 
importantly, over the years that I have seen the Chairman and 
the Ranking Member operate, I commend them for their 
bipartisanship and their fairness and their insight into these 
issues, and I think this hearing is a very good example of 
that.
    Years ago, in another life and in another place, I had some 
up close and personal associations with RPGs, RPGs 2 and 7 in 
Vietnam, and in particular during the Tet Offensive. And what I 
learned about them was that if they were fired correctly, if 
the rocket-propelled grenade was fired correctly, the shape 
charge was properly aligned with the metallic surface, whatever 
it may be, it could be very devastating. But if you were able 
to disrupt its trajectory, if it hit at an angle--and we, in 
fact, had one hit during the Tet Offensive off an Armored 
Personnel Carrier (APC) at an angle, hit a soldier in the back 
in his flack jacket, knocked him out and hospitalized him for 
three days, but it didn't even explode. So the unique 
properties of the RPG are such that it has to be aimed 
properly, it has to be in proper alignment to be fully 
successful.
    And so when I went with the Ranking Member up to Mosul to 
the Stryker Brigade and talked to the troops, I asked them 
about the Slat armor and the stand-off gauges. And one soldier 
told me, we got hit six times and continued to function. He 
said, I am not going to operate in any other vehicle than this 
Stryker vehicle. They are absolutely enthusiastic and positive 
about how that fix was working. And that was the clear 
impression I got.
    We have photographs that we brought back from the Stryker 
Brigade, and I think in the text of our report, our bipartisan 
report, which was signed off on by every member, both sides of 
the aisle, that was one of the success stories that we 
encountered.
    And I think your data shows that these approaches are 
almost--they are not 100 percent successful, but they are 
pretty close to it for this type of weapon.
    Point two. If you are firing a projectile to intercept a 
projectile, you don't want anybody in the way of it. One of my 
closest near-death experiences in Vietnam was from friendly 
fire. And there is no such thing as friendly fire, let me tell 
you. It will kill you just as much. It will kill you just as 
much. So the idea of friendly fire, the idea that you are 
shooting a projectile to hit a projectile, creates lethality 
for the battlefield, for friendly soldiers and civilians. We 
just have to understand that that is the nature of the beast. 
And so we don't want to create another hazard in an already 
hazardous situation. I think that is certainly the case.
    Now, the one concern that I do have--and I think it is an 
important concern, Mr. Chairman, and I hope that we might at 
some point perhaps pursue it in a closed session--is if you 
design an RPG that has multiple explosions--I am talking 
hypothetically--where the first explosion basically destroys 
the cage or destroys the tile or destroys the Slats, and then 
there is a second explosion of the shape charge behind the 
first, then that may tend to defeat everything that we have 
deployed.
    So I guess the way I look at it is I don't see an immediate 
threat based by the RPG that we find in the field. I think we 
have met that threat. I think this committee and this Congress, 
in a bipartisan fashion, has met that threat almost 98 percent, 
maybe almost 99 percent of the time. But when we look to the 
future, we may need an alternative system that deals with the 
multiple explosive device which somebody might be cooking up at 
some time in the future because they know--based on the data 
that you have presented, they know that the current system is 
pretty much ineffective against the three types of vehicles 
that we have deployed that are designed to deal with this.
    So I would ask you if you are looking ahead and planning 
ahead, and if you are future planning, does it meet that future 
threat.
    General Sorenson. And, Congressman, that is a great 
question. I think the answer to that is, yes, we are looking at 
that type of capability in terms of a threat right now, in 
terms of even modifying and making changes to our current suite 
that we have already deployed. But we are clearly looking at 
that threat long term, as well as potential issues with respect 
to antitank kinetic threats, which we think are more longer-
term, as well as more deadly in the future.
    Mr. Simmons. And very briefly, a second comment. RPGs are 
successful against helicopters. A helicopter, when it is 
airborne, could be mounted with a Trophy-style system with 360-
degree--not a lot of ground troops around a helicopter in the 
air, and it might have some applicability for a Trophy or a 
similar system. Have you given any consideration to this system 
as a possible air defense system for helicopters?
    General Sorenson. Sir, we have not. We have actually 
deployed our current suite of aircraft survivability equipment, 
otherwise known as the Common Missile Warning System, and we 
have found that to be effective against the threats, as 
required.
    Mr. Simmons. Thank you very much.
    Again, Mr. Chairman, and to the Ranking Member, thank you 
for your aggressive oversight of this issue.
    Mr. Weldon. I thank the gentleman for his participation.
    One final point I would like to make before we have votes--
and we do have three votes back to back, so this will probably 
be it, unless my friend has additional questions.
    There has been some confusion with regard to the source 
selection process FCS/APS system. Was the decision to go with a 
Quick Kill APS the result of a source selection process or the 
subsequent trace study analysis?
    General Sorenson. Sir, the answer to that is a little bit 
of both, and let me just try to frame the issue here.
    Clearly when the contract was written for the RFP, that 
there was to bid back on, it was to be the APS developer as 
part of the overall hit avoidance requirement. As we were--as 
that contract was put out, the requirement was that they would 
develop an architecture, a system engineering plan, and they 
could propose their particular candidate. While the candidate 
was not specifically evaluated in terms of a major factor, it 
was a subfactor analysis within the source selection. 
Obviously, if they got a great engineering plan, but the 
particular system they are going to actually put on there would 
be something that we couldn't really accept at some time in the 
future, or it was too costly, schedule issues and so forth, 
then that probably would have downplayed, if you will, 
hypothetically that type of proposal.
    Once the particular developer was identified, in this case 
it was Raytheon, they then conducted a trace study, they, GD, 
with the LSI, and basically did the analysis of particular 
systems that could be put into place not only for the current 
force, but also for the future combat system. It was at that 
point in time that the vertical launch system that was proposed 
by Raytheon was validated as the particular APS to proceed 
further with. But all the others--we net down those, as I had 
mentioned before, 20 systems down to 7. Those were evaluated in 
the trace study based upon burdens to the particular system, 
i.e., system integration problems, based upon cost, based on 
performance, and that pretty much identified about 80 percent 
of the criteria. And those selections were then evaluated, and 
what came out was the Raytheon Quick Kill system.
    Mr. Weldon. Any other comments by our witnesses?
    Mr. Abercrombie.
    Mr. Abercrombie. No.
    Mr. Weldon. I want to thank all of you for your appearance 
today and for your service to the country. We want you to 
continue to be aggressive.
    Mr. Feldman, we want you to continue to play your role and 
be aggressive. We need to have systems of checks and balances 
within the Pentagon itself. That is healthy. And we are 
prepared to provide the financial support and the resources to 
fund those systems as you deem that they are appropriate and 
safe and will, in effect, protect our troops from injury or 
death.
    Thank you very much. This hearing now stands adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                           September 21, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 21, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3593.001
    
    [GRAPHIC] [TIFF OMITTED] T3593.002
    
    [GRAPHIC] [TIFF OMITTED] T3593.003
    
    [GRAPHIC] [TIFF OMITTED] T3593.004
    
    [GRAPHIC] [TIFF OMITTED] T3593.005
    
    [GRAPHIC] [TIFF OMITTED] T3593.006
    
    [GRAPHIC] [TIFF OMITTED] T3593.007
    
    [GRAPHIC] [TIFF OMITTED] T3593.008
    
    [GRAPHIC] [TIFF OMITTED] T3593.009
    
    [GRAPHIC] [TIFF OMITTED] T3593.010
    
    [GRAPHIC] [TIFF OMITTED] T3593.011
    
    [GRAPHIC] [TIFF OMITTED] T3593.012
    
    [GRAPHIC] [TIFF OMITTED] T3593.013
    
    [GRAPHIC] [TIFF OMITTED] T3593.014
    
    [GRAPHIC] [TIFF OMITTED] T3593.015
    
    [GRAPHIC] [TIFF OMITTED] T3593.016
    
    [GRAPHIC] [TIFF OMITTED] T3593.017
    
    [GRAPHIC] [TIFF OMITTED] T3593.018
    
    [GRAPHIC] [TIFF OMITTED] T3593.019
    
    [GRAPHIC] [TIFF OMITTED] T3593.020
    
    [GRAPHIC] [TIFF OMITTED] T3593.021
    
    [GRAPHIC] [TIFF OMITTED] T3593.022
    
    [GRAPHIC] [TIFF OMITTED] T3593.023
    
    [GRAPHIC] [TIFF OMITTED] T3593.024
    
    [GRAPHIC] [TIFF OMITTED] T3593.025
    
    [GRAPHIC] [TIFF OMITTED] T3593.026
    
    [GRAPHIC] [TIFF OMITTED] T3593.027
    
    [GRAPHIC] [TIFF OMITTED] T3593.028
    
    [GRAPHIC] [TIFF OMITTED] T3593.029
    
    [GRAPHIC] [TIFF OMITTED] T3593.030
    
    [GRAPHIC] [TIFF OMITTED] T3593.031
    
    [GRAPHIC] [TIFF OMITTED] T3593.032
    
    [GRAPHIC] [TIFF OMITTED] T3593.033
    
    [GRAPHIC] [TIFF OMITTED] T3593.034
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           September 21, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WELDON

    Mr. Weldon. Do we need an interim capability to protect our 
military until the objective system comes on line in 2011? Or based on 
what we know about current threat systems and current armor solutions, 
is it an acceptable level of risk to wait until 2011 to give our 
military some sort of APS capability?
    Dr. Buhrkuhl. The vast majority of threats currently being 
encountered are Improvised Explosive Devices (IEDs). Rocket Propelled 
Grenade (RPG) attacks are much less frequent. For combat vehicles, such 
as the Abrams, Bradleys and Strykers, reactive armor tiles should be 
adequate to defeat almost all of the RPGs currently being encountered 
or expected. Therefore, the risk to combat vehicles of not having an 
Active Protection System (APS) available until 2011 is considered to be 
low.
    Mr. Weldon.  Is Slat armor effective against all known 
proliferating RPG threats?
    Dr. Buhrkuhl. Slat armor is only effective against some Rocket 
Propelled Grenade (RPG) threats. These specific RPGs have design 
features which make Slat armor effective. To protect against the 
remaining types of RPGs, the Army has developed and is procuring 
reactive armor tiles for the Abrams, Bradley and Stryker combat 
vehicles. These reactive armor tiles are effective against almost all 
of the RPGs encountered or expected.
    Mr. Weldon. How is the Joint Rapid Acquisition Cell working to 
respond to CENTCOM's April 19, 2005 urgent operational need statement 
calling for an ``improved active protection capability against RPGs''?
    Dr. Buhrkuhl. The Joint Rapid Acquisition Cell responded to the 
United States Central Command (CENTCOM) Joint Urgent Operational Need 
(JUON) by funding Spiral 1 Development of the Full Spectrum Effects 
Platform (FSEP), which includes a suite of capabilities that include 
lethal and non-lethal responses against a variety of threats. The plan 
for Spiral 1 Development included an Active Protection System against 
Rocket Propelled Grenade (RPG) threats, as well as, an Active Denial 
Technology against threat personnel. The Army program manager 
recommended that the Active Protection System and Active Denial 
Technology be delayed until those technologies were adequately 
developed for operational use in a later development spiral. We 
coordinated with CENTCOM and obtained their concurrence prior to 
proceeding with the revised FSEP capability. The Army program manager 
will be responsible for any later incorporation of active protection 
capability against RPGs.
    Mr. Weldon. A February 9, 2006 notification to Congress indicated 
that $31.3 million was being transferred from the Iraqi Freedom Fund to 
the Army for the development of Spiral 1 Full Spectrum Effects Platform 
(FSEP). The documentation provided to Congress indicated that the 
system would include ``a rocket-propelled grenade Active Protection 
System.'' We now understand that APS will not be part of FSEP spiral 1. 
How is this funding being used now that the decision has been made to 
delay APS?
    Dr. Buhrkuhl. To provide our service members with the most updated 
capabilities, the Full Spectrum Effects Platform (FSEP) project is 
following a spiral acquisition strategy. Spiral 0 provided one vehicle 
for the development of tactics and employment considerations. Since the 
removal of Active Protection System (APS), the FSEP project adjustments 
include: 1) procuring three Stryker Infantry Carrier Vehicles for 
integration, 2) incorporating a training strategy to allow the unit to 
meet its go-to-war mission rehearsal exercise with the Spiral 0 vehicle 
and two Infantry Combat Vehicles, 3) adjusting the in-theater support 
requirements from six months to 12 months in order to provide the 
operational commander this capability throughout the rotation, and 4) 
adding an enhanced Counter--Improvised Explosive Device capability. The 
adjustments provide the best blend of capabilities for training, 
testing, and deployment.
    Mr. Weldon. You mentioned in your written statement that you ``. . 
. validated the Army program manager's decision to integrate the Active 
Protection capability in a subsequent development.'' Please discuss 
this subsequent development effort and if it is funded?
    Dr. Buhrkuhl. The Department is pursuing development of Active 
Protection System capability in a number of ways that have been 
outlined in other responses. As that capability matures, we expect that 
the Army will examine the most suitable alternatives for integrating 
capability onto the Full Spectrum Effects Platform (FSEP). However, the 
Army has yet to identify the funding needed to perform that integration 
and testing onto FSEP.
    Mr. Weldon. What services besides the Army need active protection? 
If so, what has been their position on Active protection so far, and 
what plans have they made, if any?
    Dr. Buhrkuhl. The Navy/Marine Corps are evaluating Army assessments 
of Active Protection Systems, and will continue to monitor advances in 
this capability and evaluate its utility for future use by Naval Forces 
on its vehicles. The Air Force has not yet identified this as a 
requirement for Air Force vehicles.
    Mr. Weldon. Active protection for land forces should not be limited 
to heavy armored vehicles, but should include trucks and HUMVEES. Are 
there systems that are scalable to these other, lighter platforms?
    Dr. Buhrkuhl. First generation active protection system (examples 
include the Russian Arena and Drozd and the American Close-In Active 
Protection System (CIAPS) and Full Spectrum Active Protection Close-In 
Shield (FCLAS), respectively) were designed for armor-on-armor combat 
where the active protection systems were designed simply to protect the 
armored vehicle by reducing the penetration capability of the incoming 
round. While they reduced penetration to an inch or less, they were 
characterized by a large lethal fratricide zone. They were also heavy, 
though still lighter than the armor they could replace.
    Some advanced systems (examples include Trophy, Integrated Army 
Active Protective System (IAAPS), Small Low-Cost Interceptor Device 
(SLID)) have attempted to address the fratricide issue by increasing 
the standoff, focusing the lethal mechanism to a smaller volume, or 
using a hit-to-kill mechanism. While these are a definite improvement 
over first generation systems, they are more complicated and expensive. 
They are still relatively heavy (500 lb or more) and still produce 
collateral effects that represent unacceptable risks when used in 
scenarios involving dismounted friendly combatants and/or non-combatant 
personnel in proximity to the vehicles.
    Some efforts have been made to address the collateral effects in 
these systems. For example, the Israeli Iron Fist system uses a non-
fragmenting grenade designed to reduce (but not eliminate) the 
potential for collateral damage. While several of these systems claim 
to be applicable to light vehicles, they are clearly optimized for 
armored combat.
    Since 2003, Defense Advanced Research Project Agency (DARPA) and 
the Army have been working on systems that could be used on lighter 
vehicles. The objectives were:

        1)  No collateral damage aside from that caused by the threat 
        itself,
        2)   Residual penetration which could be handled by the light 
        armor appliques used for tactical vehicles in service today,
        3)  Light weight, and
        4)  Low cost.

    These systems and components are under test today and promise 
capability against Rocket Propelled Grenades (RPGs) and even heavy 
Anti-Tank Guided Missiles (ATGMs). They do not have a growth path to be 
able to counter standoff kinetic weapons such as gun fired tank rounds, 
and as such are not replacements for the Quick Kill system under 
development for Future Combat Systems (FCS).
    Mr. Weldon. You state in your written statement that ``Retaining 
Trophy as a component of Spiral 1 (FSEP) would add, at a minimum, an 
additional six to fourteen months to the schedule, thereby delaying 
other useful FSEP capabilities.'' Was this timeline based upon 
recommendations from the Army's Test and Evaluation Command as well as 
the Office of Force Transformation? If so, did both organizations agree 
on this timeline?
    Dr. Buhrkuhl. As I stated in my testimony, we collaborated with the 
Office of Force Transformation (OFT) throughout our deliberations on 
responding to the Central Command (CENTCOM) Joint Urgent Operational 
Need. OFT, however, is not a test activity and so we consulted with the 
Director of Operational Test and Evaluation (DOT&E) and U.S. Army Test 
and Evaluation Command (ATEC) to determine the most likely timeframe 
for testing. We were aware of the OFT concern regarding the schedule; 
however, after studied consideration of the development and performance 
risks involved, the Joint Rapid Acquisition Cell (JRAC) agreed with the 
recommendations of the independent test organizations and the program 
office.
    Mr. Weldon. Do we need an interim capability to protect our 
military until the objective system comes on line in 2011? Or based on 
what we know about current threat systems and current armor solutions, 
is it an acceptable level of risk to wait until 2011 to give our 
military some sort of APS capability?
    General Sorenson. No, the Army's current assessment is that we do 
not need an interim capability. The vast majority of threats currently 
being encountered are improvised explosive devices (IEDs). The Rocket 
Propelled Grenade (RPG) attacks are much less frequent. For combat 
vehicles, such as the Abrams, Bradleys and Strykers, reactive armor 
tiles should be adequate to defeat almost all of the RPGs currently 
being encountered or expected. Therefore, the risk to combat vehicles 
of not having an Active Protection System (APS) available until as 
early as 2011 is considered to be low. Note that APS is not effective 
against IEDs.
    The RPG threat to our combat systems is considerably less than what 
has been reported in the media. Since 2003, and as of 7 November 2006, 
148 Soldiers have been killed in action (KIA) or died of wounds 
received in actions involving an RPG. Of the 148 killed in action, 63 
were RPG only; the remaining KIAs were the result of complex attacks 
involving an RPG and some other kind of weapon. Additionally, of the 
148 killed in action since 2003, only ten Soldiers killed in action 
involved current combat vehicle systems that the Army could potentially 
accept the integration of an active protection capability (Abrams, 
Bradley, Stryker, etc.).
    Mr. Weldon. Is SLAT armor effective against all known proliferating 
RPG threats?
    General Sorenson. SLAT armor is not effective against all known 
proliferating RPG threats. To protect against the remaining types of 
RPGs, the Army has developed and is procuring reactive armor tiles for 
the Abrams, Bradley and Stryker combat vehicles. These reactive armor 
tiles are effective against almost all of the RPGs encountered or 
expected.
    Additionally, to counter future threats (proliferating RPG threats 
being one), the Army is embarked on a holistic approach towards 
survivability, including leveraging the network for improved 
situational awareness, reducing signature management, improving 
ballistic protection, modifying operational tactics, and pursuing hit 
avoidance. In the context of military ground combat vehicles, hit 
avoidance comprises technologies that enable defeat of the threat prior 
to its impact with the vehicle. The hit avoidance requirement for our 
future force is a 360-degree hemispherical ``bubble'' of protection to 
our combat platforms.
    Currently, the Future Combat Systems (FCS) program is developing a 
full-spectrum solution to counter short- and long-range threats, which 
include a wide range of ballistic projectiles: RPGs, antitank guided 
missiles, tank-KE/HEAT, top attack munitions. This full spectrum system 
will be fielded to the entire force.
    Mr. Weldon. In reference to the Request for Proposal (RFP) and the 
source selection process please explain the weighting of the evaluation 
criteria that led to the selection of Raytheon. Specifically, did the 
evaluation criteria lean more towards an APS solution for FCS, the 
current force, or were they weighted the same?
    General Sorenson. The source selection criteria were weighted to 
determine the best Active Protection developer for FCS. A portion of 
the contract statement of work addressed ``spinning out'' short-range 
technology to Current Force (CF) but no specific CF requirements were 
used as evaluation criteria. The trade study similarly evaluated the 
best technology for FCS. The FCS objective is to develop a full 
spectrum capable solution to counter short and long-range threats. The 
FCS short-range system will be ``spun-out'' to the CF--the desired end 
state is to enhance commonality between current and future force 
systems and to enable future upgrades to both. The Lead Systems 
Integrator's Request for Proposal (RFP) Statement of Work (SOW) 
included:

    Base Effort: Develop a robust, detailed APS architecture to 
integrate into Manned Ground Vehicle (MGV) platforms and apply 
architecture to Army's current force.

    Option A: Supply APS B kit for current force (First Priority and 
Focus)

    Option B: Definitize the FCS materiel solution, including short and 
long range capability

    The RFP award factors in descending order of importance were: 
Technical, Cost, Management/Schedule, and Past Performance. The 
Technical factor was more important than the combination of Cost and 
Management/Schedule. The six Technical subfactors in descending order 
of importance were: Systems Engineering and Architecture; Expertise in 
APS Technologies; Simulation, Modeling and Test; Fratricide and 
Collateral Damage; Specialty Engineering; and Integration Capability.
    Mr. Weldon. An unclassified Army information paper on APS dated 13 
June 2006 states: ``The Army is currently not funding the development 
and procurement of an APS for Stryker.'' Other than the FCS APS 
development effort, does the Army have any other funded APS efforts 
that could benefit the current force earlier than 2011?
    General Sorenson. No, the Army does not have any other funded APS 
efforts that could benefit the current force earlier than 2011. The 
Army APS development provides APS solution for both the current (PEO 
Ground Combat Systems--Stryker, Bradley, Abrams) and the future (Future 
Combat Systems--FCS MGV) platforms--in close coordination with the 
Science & Technology community.
    The Army is developing a short range RPG countermeasure capability 
for the Current Force (Stryker, Abrams and Bradley) and a full-spectrum 
solution to counter short- and long-range threats, which includes a 
wide range of ballistic projectiles: RPGs, antitank guided missiles, 
tank-KE/HEAT, top attack/precision guided missiles, and large caliber 
cannon. Developmental funding does exist and the POM fiscal year 2008-
13 is still being worked.
    Mr. Weldon. Does the current force have to wait for the FCS program 
to spin out an APS solution? Why can't the current force develop and 
field an interim APS solution on its own? Does this mean that current 
force systems can only get future technology upgrades from the FCS 
program?
    General Sorenson. The Army solution to an Active Protection System 
currently includes the current force. The Army conducted significant 
analysis to determine current and future requirements. The current 
force will not get an APS capability earlier by splitting the APS 
development approach in two. The current approach ensures commonality 
and future upgrades to both current force and FCS MGV combat vehicles. 
The Army approach to active protection includes a tightly integrated 
team that includes PM Future Combat Systems, PEO Ground Combat Systems 
(Stryker, Bradley and Abrams), the Science and Technology Community and 
the Best of Industry. The plan is to provide short-range capability to 
the current force first (Short-Range RPG defeat) and then full spectrum 
capability to current (Stryker, Bradley, Abrams) and FCS (Manned Ground 
Vehicles) second. No system will be procured or fielded unless the Army 
is confident that the system is safe for Soldiers' use and is effective 
and survivable under operational conditions. Active protection is not 
just an FCS program--it is an Army program and approach to full 
spectrum Soldier survivability. The Army will ensure that both current 
and FCS equipped Brigade Combat Teams (BCTs) receive future technology 
upgrades.
    Mr. Weldon. In thinking about potential scenarios, it would seem 
that a close-range attack with an RPG would be very difficult to defend 
against, given the extraordinarily fast reaction times required. Is 
that correct? Can an APS be effective in close-range situations at all?
    General Sorenson. Generally, the closer the weapon is fired and the 
faster the incoming round, the harder it is for most APS solutions to 
identify, track, intercept and neutralize the inbound threat. It 
requires engagement closer to the vehicle, which means you need to use 
a more lethal countermeasure to adequately defeat the RPG threat. The 
short-range APS will be effective against the Army's requirement for 
close-in attacks. A major part of the solution in the defeat of close-
range attacks may be tactics and doctrine. Technical testing and User 
experimentation with APS will be conducted to establish the best way to 
defeat close-range RPG attacks.
    We are currently investigating different technologies to neutralize 
close-range RPGs. The APS systems can be effective in close-range 
situations, but like any system will have design limitations for ranges 
that it can not protect against. For this reason, the Army's Current 
Force and FCS APS program is developing a suite of technologies to 
counter threats with multiple means--a full spectrum hit avoidance 
suite.
    Mr. Weldon. Do we need an interim capability to protect our 
military until the objective system comes on line in 2011? Or based on 
what we know about current threat systems and current armor solutions, 
is it an acceptable level of risk to wait until 2011 to give our 
military some sort of APS capability?
    Mr. Feldman. It has been stated that current threat levels do not 
merit a need for Active Protection Systems (APS) deployment before 
2011, but the recent experience of the Israeli Defense Forces (IDF) in 
Lebanon calls this assumption into question. A majority of the 
casualties sustained by the IDF in the recent conflict were directly 
related to Anti-Tank Guided Missiles (ATGMs) provided to the Hezbollah 
by Syria and Iran. Many of the IDF heavy and light armored vehicles 
were attacked by more advanced threats in greater numbers than had been 
expected. It is important that we explore near term protection 
solutions, which unlike armor, are not reliant on amelioration of 
lethality upon vehicle impact. An interim capability will provide 
protection against emerging threats, and also provide a platform for 
the development of Tactics Techniques and Procedures concerning the 
usage of Active Protection Systems. It is our understanding that the 
2011 timeframe is when the Quick Kill system will be ready for test. 
Significant acquisition quantities would not be expected until 2 to 3 
years after that. All this time could be used for learning how we 
employ and specify these systems.
    Mr. Weldon. Is SLAT armor effective against all known proliferating 
RPG threats?
    Mr. Feldman. This question needs to be answered in a classified 
forum as it requires a discussion of capabilities, limitations and 
vulnerabilities.
    Mr. Weldon. Various news reports have quoted Office of Force 
Transformation (OFT) sources implying that the Trophy system is ready 
for deployment now. What is the official OFT position on the current 
availability of Trophy as it pertains to the FSEP program?
    Mr. Feldman. The OFT has never stated that the Trophy was ready for 
deployment. In order to be ready for deployment the system must first 
be subjected to additional qualification and performance testing. The 
Trophy system has continued development with the IDF since the 
demonstrations at NSWC Dahlgren in March including initial development 
of an autoloader and the beginning of certification testing. The Army 
recommended that the Tropy not be included on the FSEP program and the 
JRAC, after consulting with CENTCOM who in turn consulted with the user 
in the field, made the decision to delay the use of the Trophy on this 
spiral of the FSEP program. Trophy is being carried forward as part of 
the OFT Wolf Pack Platoon project with proposals for further 
performance testing and certification for US usage should this stage 
prove out. The OFT position is that with a limited procurement of 3 
test systems and 40 countermeasures, and an appropriate test program, 
the Trophy could be approved for US usage.
    Mr. Weldon. I understand that the Office of Force Transformation 
(OFT) has worked very closely with the Israeli government in regards to 
integrating Trophy on a Stryker vehicle. Please tell us what your 
current understanding is of when the Israeli Defense Force (IDF) plans 
to field Trophy to their forces?
    Mr. Feldman. OFT worked closely with Rafael, General Dynamics Land 
Systems (GDLS) and the Israeli Defense Forces (IDF) to integrate the 
Trophy on the first Full Spectrum Effects Platform (FSEP) vehicle. 
Independent of that effort, Rafael and GDLS developed an initial 
integration concept for the Trophy system that would allow a Stryker 
Infantry Carrier Vehicle (ICV) to fulfill all of its missions with the 
Trophy system installed. According to the Embassy of Israel Research 
and Development Attache the initial low rate production of Trophy will 
begin by March 2007 with full production by August of 2007. Multiple 
IDF platforms are being considered for Trophy integration, with the 
first being Merkava Main Battle Tanks. The first Merkava MK4 equipped 
with Trophy is expected to leave the production line in January 2008.
    Mr. Weldon. There have been statements that there are major 
collateral damage issues associated with Trophy. Based on your 
understanding of the data that the Israeli government has shared with 
you, do you have similar concerns?
    Mr. Feldman. Of the systems examined for the Full Spectrum Effects 
Platform (FSEP), Trophy had the lowest potential for fratricide and 
collateral damage of all of the intercepting systems. This is due to 
the fact that the Trophy uses a small amount of explosive to fire a 
limited number of small projectiles towards the incoming round in an 
extremely focused group. Most of the other alternative systems launch 
projectiles with large radially exploding warheads. In all cases the 
Trophy projectiles will have no energy within 250 meters and in most 
cases, against Rocket Propelled Grenades (RPGs) fired from ground 
level, the projectiles will be in the ground within 65 meters. First 
order safety studies done by the Naval Surface Warfare Center, Dahlgren 
Division (NSWCDD) indicated that troops with body armor would be safe 
at even closer distances. Additional testing needs to be conducted to 
understand and characterize the collateral damage to noncombatants at 
close range (within 65 meters). As part of the proposed Trophy test 
program, countermeasure characterization and analyses of safety hazards 
to dismounted troops and civilians would be conducted. In addition, the 
proposed program will include the initial development of Tactics, 
Techniques and Procedures by the warfighters to determine how and under 
what conditions the system should be employed.
    Mr. Weldon. What can you tell us about the various testing that the 
Israeli's have done on Trophy?
    Mr. Feldman. The Israeli's have conducted a significant amount of 
testing on the Trophy system. Naval Surface Warfare Center (NSWC), with 
Rafael and General Dynamics Land Systems (GDLS), has developed a 
classified summary brief of this testing. The testing includes over 450 
test firings in a variety of conditions as well as safety and 
environmental testing. The table below summarizes the testing that was 
conducted in conjunction with the Full Spectrum Effects Program (FSEP)/
Project Sheriff efforts.

                The Trophy integrated on the FSEP Stryker
------------------------------------------------------------------------
                  Test                                Result
------------------------------------------------------------------------
  Fit and Function                         Trophy installed and fit as
                                          designed. System functioned as
                                          expected.
------------------------------------------------------------------------

  Electromagnetic Vulnerability            No susceptibilities on
 (Tailored Environment)                   Trophy.
------------------------------------------------------------------------

  Hazards of Electromagnetic Radiation     Trophy caused no effects to
 to Ordance (HERO)                        any ammunition types expected
                                          aboard FSEP.
------------------------------------------------------------------------

  Hazards of Electromagnetic Radiation     Below personnel exposure
 to Personnel (HERP)                      limits.
------------------------------------------------------------------------

  Electromagnetic compatibility            No interaction of Trophy with
                                          other systems on board
                                          vehicle.
------------------------------------------------------------------------


                The Trophy integrated on the IDF Stryker
------------------------------------------------------------------------
                  Test                                Result
------------------------------------------------------------------------
  Fit and Function                         Trophy installed and fit as
                                          designed. System functioned as
                                          expected.
------------------------------------------------------------------------

  Flash Signature                          The flash signature seen
                                          through the periscopes of the
                                          vehicle would not cause ocular
                                          damage to personnel inside the
                                          vehicle. Flash outside of the
                                          vehicle would not cause ocular
                                          damage.
------------------------------------------------------------------------

  Acoustic Signature                       Adequate hearing protection
                                          is provided by the required
                                          standard hearing protection
                                          worn inside the vehicle.
------------------------------------------------------------------------

  Blast Overpressure                       Minimal blast overpressure
                                          inside of the vehicle. Trophy
                                          is designed to be operated
                                          with open hatches.
------------------------------------------------------------------------

  Debris Protection                        Witness panels proved that
                                          blast shields protected crew
                                          hatch areas from debris.
                                          Trophy is designed to be
                                          operated with open hatches.
------------------------------------------------------------------------

  Live Fire tests conducted at Naval       38 tests were conducted with
 Surface Warfare Center, Dahlgren         inert Rocket Propelled
 Division (NSWCDD)                        Grenades (RPGs) being fired at
                                          (or in close proximity to) the
                                          vehicle Multiple tests were
                                          conducted firing 2 RPGs nearly
                                          simultaneously--one to each
                                          side of the vehicle.

                                           The test were conducted
                                          against RPG-7 missiles with
                                          inert warheads. These RPGs had
                                          the same velocity and flight
                                          profiles as live RPGs and were
                                          certified by NSWCDD Explosive
                                          Ordnance Device (EOD) techs as
                                          being representative. RPGs
                                          were fired remotely from 100
                                          meters away using test stands.

                                           12 of the 38 tests were
                                          conducted as the vehicle was
                                          moving at approximately 25mph.

                                           35 of the 38\1\ tests were
                                          rated as a success. System
                                          identified, tracked and
                                          engaged threat \2\ RPGs.

                                         Notes:
                                         (1) Tests using a ``live''
                                          Trophy engagement round
                                          accounted for 6 tests with 4
                                          countermeasures firing. All
                                          other Trophy tests were deemed
                                          either a success or a failure
                                          by using tracking cameras in
                                          place of the ``live'' Trophy
                                          countermeasure and analyzing
                                          the system data with the video
                                          coverage with modeling and
                                          simulation to predict the
                                          outcome.

------------------------------------------------------------------------

    In addition to the tests noted above a structural test was 
conducted at Aberdeen Proving Ground to determine that the loading 
imposed by a Trophy warhead would not overstress a Stryker vehicle. A 
1/2 kg charge of C-4 was detonated in place of the Trophy warhead and 
no structural damage was noted.
    Mr. Weldon. It has been said that the Trophy testing that was 
conducted at the Dahlgren Naval Test Center in March 2006 required 
additional power sources and control panels in the Stryker's crew 
space. Is this correct, please explain?
    Mr. Feldman. Two integrations of the Trophy system were performed 
to support the Full Spectrum Effects Platform (FSEP) program:
    1. The first was the integration of the Trophy onto the FSEP 
Stryker vehicle conducted in December 2005. In this integration, the 
Trophy launchers were mounted to the side of the FSEP vehicle. 
Structural analysis and testing of the launcher mounting points 
verified that the Stryker hull would not be adversely affected by the 
Trophy system. The Trophy search radar systems were mounted on each 
side and at the front and rear of the vehicle in special mounting 
brackets.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Trophy on the FSEP Stryker

    The internal components of the Trophy system were integrated as 
part of the FSEP system and were mounted in racks and positions 
suitable for employment in the FSEP vehicle. The Trophy system was 
powered by the FSEP system generator. No additional electrical power 
requirements were needed. This first integration incorporated the 
Trophy as part of the FSEP system and was reflective of how it would be 
included in a combat vehicle.
    2. The second FSEP Trophy integration was on the Israeli Defense 
Force Stryker. This integration was conducted to support the tests and 
demonstration planned at the Naval Surface Warfare Center, Dahlgren 
Division (NSWCDD) in March 2006. The exterior installation of this 
system was identical to that on the initial FSEP vehicle installation. 
The interior components of the Trophy system were rack mounted inside 
the vehicle to facilitate the necessary testing and analysis. Again, in 
this installation the Trophy system ran exclusively on vehicle power. 
No additional power systems were needed. This installation was not 
intended to represent a combat capable configuration. The installation 
was developed as a demonstration capability to facilitate the testing, 
demonstration and extraction of data from the system.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     FSEP Trophy on the IDF Stryker

    In addition, to the Trophy integration done to support Full 
Spectrum Effects Platform (FSEP), General Dynamics Land Systems (GDLS) 
and Rafael have completed a concept study and analysis of a Trophy 
installation that would meet all Stryker Infantry Carrier Vehicle 
requirements. This integration concept utilizes the Trophy system 
components that have been developed for integration on Israeli Defense 
Forces (IDF) vehicles.
    Mr. Weldon. Is the OFT currently conducting any other efforts in 
regards to Trophy? If so please explain.
    Mr. Feldman. Rafael is currently planning to lend OFT an initial 
production variant of the Trophy system. This variant is identical to 
the system being provided to the IDF for integration on the Merkava MK4 
main battle tank. The updated system includes an autoloader, ruggedized 
radars and electronics, and an updated countermeasure design. This 
system will be integrated on the Wolf Pack platoon Cougar vehicle. As 
part of this effort OFT, the IDF, Rafael and GDLS will establish the 
plan to ensure that appropriate testing and safety analyses are 
conducted to demonstrate the capabilities and limitations of the Trophy 
system.
    The current plan is for the testing efforts to be completed in time 
for Trophy systems to be used as part of the Wolf Pack Platoon 
experimentation in January of 2008. This proposed effort would be 
sufficient to demonstrate Trophy applicability on both wheeled and 
tracked vehicles.
    Mr. Weldon. Can you identify a proven, lightweight and low cost RPG 
defeat system that provides protection for vehicles, including light 
tactical vehicles, without fratricide that is made in the USA?
    Mr. Feldman. Although there are several United States systems that 
have been demonstrated to various degrees, none meets all of the above 
requirements. All US systems that have been examined by the Office of 
Force Transformation (OFT) require significant further development and 
testing.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BRADLEY

    Mr. Bradley. Can you identify a proven, lightweight and low cost 
RPG defeat system that provides protection for vehicles, including 
light tactical vehicles, without fratricide that is made in the USA?
    General Sorenson. To date, no low cost, lightweight US APS sub-
system has been fully developed, integrated, and tested on a current 
ground combat or tactical system. Current systems that might be 
available require significantly more testing and refinement to prove 
their capabilities against all threats of interest. In the past, Army 
Science and Technology program has studied at a number of approaches to 
APS in programs such as Integrated Army Active Protection (IAAPS), 
Close-in Active Protection System (CIAPS), Full Spectrum Active 
Protection System (FSAP) and Full Spectrum Active Protection Close-in 
Layered Shield (FCLAS). Both CIAPS and FCLAS investigated the 
possibility of integrating active protection on light tactical vehicles 
(HMMWVs, trucks, etc). There are significant challenges to overcome 
with regards to putting APS on a tactical vehicle such as: integration 
(space, weight, power and cooling--(SWAP-C)), lack of armor to defeat 
(catch) threat debris and capability to provide 360 degree protection. 
To date, no APS has been able to overcome all of these challenges for 
tactical vehicles.
    Mr. Bradley. Can you identify a proven, lightweight and low cost 
RPG defeat system that provides protection for vehicles, including 
light tactical vehicles, without fratricide that is made in the USA?
    Dr. Buhrkuhl. There is currently no ``proven'' lightweight Active 
Protection System (APS) for either combat or light tactical vehicles. 
All the systems under development require much more refinement and 
testing. While these candidate systems under development may have the 
potential to meet the proven, lightweight and low cost criteria, more 
development, testing, and certification is needed to prove that 
potential. Specifically, these candidates include: The Defense Advanced 
Research Projects Agency's (DARPA) Iron Curtain APS, recently 
demonstrated on a High-Mobility Multipurpose Wheeled Vehicle (HMMWV); 
U.S. Army Tank Automotive Research, Development and Engineering 
Center's (TARDEC) Tactical RPG Airbag Protection System (TRAPS) 
demonstrated on a HMMWV in 2005; and the Aviation and Missile Research, 
Development and Engineering Center's (AMRDEC) Close-In Active 
Protection System (CIAPS II) planned for demonstration on a HMMWV in 
FY07.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. JONES

    Mr. Jones. In the spirit of fielding a system as soon as possible, 
and if the above information is accurate, would your office support 
funding and further development of a system like FCLAS?
    General Sorenson. FCLAS is one of the active protection (AP) 
solutions the Army S&T community assessed for vehicle platform 
protection against close-in fired Rocket Propelled Grenades (RPGs) and 
man portable Anti-tank Guided Missiles (ATGMs) that is in the early 
stages of development. FCLAS has undergone range testing of a proof-of-
principle prototype design with some success in defeating current 
threat RPGs during testing. The system experienced radar multipath 
(i.e., a propagation phenomenon that results in false targets and 
signal interference) as a result of ground clutter and will have to go 
through a significant redesign to correct this condition before it 
would be considered adequate for a ground vehicle.
    The current FCLAS configuration presents an integration burden and 
adds significantly to the system weight. FCLAS autonomously conducts 
surveillance with the nose cone sense and tracking radar for target 
acquisition, tracks the threat, launches, fuses, and detonates the 
countermeasure to defeat the incoming threat. The user is provided 
control over which tubes can protect the vehicle via a system 
controller. This capability prevents an FCLAS round from operating in 
areas where dismounts are known to be. The system is envisioned to be 
effective against hand held HEAT (i.e. RPGs and man-portable ATGMs) but 
some vehicle armor will be necessary to protect the occupants from 
residual debris after threat intercept.
    The FCLAS short-comings are: 1) the complexity of mounting and 
space required to integrate a large number of launchers; 2) side-firing 
warhead creates large hazard area; 3) supply chain requirement for such 
a large quantity of interceptors; 4) loss of sector coverage once a 
countermeasure is fired (no coverage for near simultaneously fired 
threat in the same azimuth); and 5) no growth potential for long range 
intercept of large anti-armor threats.
    The FCLAS is not ready to hand over to the US Army Test and 
Evaluation Command for testing to assess its capabilities, limitations 
and level of safety. Any APS system being considered for fielding would 
have to be tested to verify the developer's claims, check 
compatibility, and ensure Soldier and noncombatant safety when the 
system is being used in environments and conditions like those it will 
be exposed to in combat. This testing would include a test to define 
the potential hazard to dismounted troops and noncombatants who may be 
in the vicinity of the vehicle.

                                  <all>

</pre></body></html>
